No.

IN THE
SUPREME COURT OF THE UNITED STATES
ROGER G. BABCOCK -PETITIONER
VS.
STATE OF FLORIDA -RESPONDENT(S)

INDEX TO APPENDIX

Opinion
2021

Babcock
A1

v.

State.

So.

3d

Order of the Twelfth Judicial Circuit issued April 23, 2020
Order denying rehearing issued March 11,2021

issued

February

19,

A2-A4
A5

Motion to Vacate Sentence filed January 9, 2020

A6-A49

Motion for Rehearing filed March 3, 2021

A50-58

Buford v. State. 403 So. 2d 943 (Fla. 1981)

A59-A71

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
ROGER G. BABCOCK,

)
)
)
)
)
)
)
)
)

Appellant,
v.
STATE OF FLORIDA,
Appellee.

Case No. 2D20-1797

Opinion filed February 19, 2021.
Appeal pursuant to Fla. R. App. P. 9.130
from the Circuit Court for Sarasota
County; Donna Marie Padar, Judge.
Roger G. Babcock, pro se.

PER CURIAM.

Affirmed.
NORTHCUTT, VILLANTI, and ATKINSON, JJ„ Concur.

A\

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
IN AND FOR SARASOTA COUNTY, FLORIDA

STATE OF FLORIDA,
Plaintiff,
vs.

CASE NO. 1997 CF 15469

ROGER G. BABCOCK,
Defendant.

ORDER DENYING
MOTTION TO VACTE SENTENCE
This matter is before the Court on Defendant’s motion to vacate sentence filed January 9,
2020, ostensibly pursuant to Rule 3.850, Fla. R. Crim. P.'The Court has reviewed the motion, the
court file, and is otherwise advised in the premises.
Case History
Upon a jury verdict, the Defendant was convicted of sexual battery by a person over 18
years of age upon a child under 12 years of age pursuant to Sec. 794.01 l(2)(a), Fla. Stat. (1997)
and sentenced to life in the Department of Corrections (DOC) without the possibility of parole.
The judgment and sentence were affirmed on direct appeal. See Babcock v. State, 752 So. 2d 604
(Fla. 2d DCA 2000) (Table).

1 Based on Defendant’s argument and the relief requested, the Court construes the motion as a motion to correct illegal
sentence under Rule 3.800(a), Fla. R. Crim. P., which may be filed any time.

A2_

1

In 2001, the Defendant filed a motion for postconviction relief. After an evidentiary
hearing, the Court on October 3, 2002, entered a final order denying the motion. The order was
affirmed on appeal. See Babcock v. State, 853 So. 2d 414 (Fla. 2d DCA 2003) (Table).
Present Motion
Defendant alleges his sentence is illegal because the Court erroneously believed it was
required to sentence him to life without eligibility for parole and failed to order a presentence
investigation report for an individualized sentencing hearing.
Defendant s claims are without merit. Defendant was convicted of sexual battery by a
person over 18 years of age upon a child under 12 years of age pursuant to Sec. 794.011 (2)(a), Fla.
Stat. (1997), a capital felony punishable as provided in Sec. 775.082(1), Fla. Stat. (1997). As
written, the cross-referenced section provides that capital sexual battery is punishable by death. In
Buford v. State, 403 So.2d 943 (Fla. 1981), however, the Florida Supreme Court held that a
sentence of death for capital sexual battery violates the Eighth Amendment. Following Buford, the
maximum sentence for capital sexual battery became life imprisonment with the possibility of
parole after twenty-five years.
In 1995, the Legislature eliminated the possibility of parole for convictions of capital
sexual battery. See Ch. 95-294, § 4, at 2718, Laws of Fla. Thus, Sec. 775.082(1), Fla. Stat. (1997)
provides that a person convicted of capital sexual battery “shall be punished by life imprisonment
and shall be ineligible for parole.” In the present case, Defendant’s sentence was automatic upon
his conviction—the Court had no discretion. See Buford v. State, 403 So. 2d at 954. Because a
court has no sentencing discretion, “[a] guidelines scoresheet need not be prepared for the
sentencing of a defendant for a capital offense.” Riggsby v. State, 696 So. 2d 1337 (Fla. 2d DCA
1997). It is, thereupon

>42)

2

ORDERED that the motion is DENIED. Defendant is further advised that he has the right
to appeal this order within 30 days from the date this order is rendered.
DONE AND ORDERED in Sarasota, Sarasota County, Florida this ^ day of April
2020.
D
Donna Marh^Papar, Circuit Judge
CERTIFICATE OF SERVICE
I certify that a copy of the foregoing order was furnished by mail to Roger G. Babcock
DOC# 165844, Cross City C.I., 568 NE 255th Street, Cross City,'FL 32628 and Office of the
State Attorney, 2071Ringling Blvd, 4th Floor, Sarasota, FL 34237 on this~22~, day of April 2020.

By:
Judici;

AH

i

ifn

3

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

March 11, 2021
CASE NO.: 2D20-1797
L.T. No.: 97-CF-15469
ROGER G. BABCOCK

v.

Appellant / Petitioner(s),

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's "motion for rehearing, issue an opinion proper, certification to the
supreme court of Florida" is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
ROGER G. BABCOCK
KAREN E. RUSHING, CLERK

C. SUZANNE BECHARD, A.A.G.
12TH CIRCUIT COURT ADMINISTRATOR

ag

Mary Elizabeth Kuenzel

Clerk

As

CKO!

OV$9°cV
I

JAN

JHE (CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
fY \IN AND FOR SARASOTA COUNTY, FLORIDA

FOR MAWsJ

ROGER G. BABCOCK,
Petitioner,
Vs.

Case No.: 97-15469-F

STATE OF FLORIDA,
Respondent,

MOTION TO VACATE SENTENCE
Petitioner, Roger G. Babcock, proceeding pro se, pursuant to Fla. R . Crim.
P. 3.850 (2019), motions this Honorable Court to vacate his prison sentence and to
conduct a de novo resentencing hearing in which to hear and determine the
question of the probation of the Petitioner pursuant to the applicable provisions of
§948.01, Fla. Stat. (1997). In support thereof, Petitioner shows the following:
PRELIMINARY STATEMENT
Petitioner, Roger G. Babcock, is the Defendant in a criminal case;
Respondent, the State of Florida, is the Plaintiff. Pursuant to Fla. R. App. P. 9.220,
the instant motion contains references to the appropriate pages of the supporting
Appendix of Exhibits.

1

/\(a

STATEMENT OF THE CASE AND FACTS
On October 21, 1997, Petitioner was charged by information with one count
of sexual battery in violation of §794.01 l(2)(a), Fla. Stat. (1997). Petitioner
entered a plea of not guilty and proceeded to trial; during which period, Petitioner
made a number of unsuccessful attempts to negotiate with the Office of the State
Attorney (See Exhibit A).
On May 29, 1998, following a four-day jury trial, the jury returned its
verdict finding the Petitioner guilty as charged (See Exhibit B, pgs. 6-7). At
sentencing, defense counsel, the prosecutor, and the trial judge treated the
proceeding as ministerial. The trial judge did not order a presentencing
investigation pursuant to Fla. R. Grim. P. 3.710(a) or conduct a sentencing healing
pursuant to Fla. R. Crim. P. 3.720(b). Instead, the court simply sentenced the
Petitioner to life impri sonment without the possibility of parole.
THE COURT: Okay, is there any lawful reason not to impose sentence at
this time?
MR. WATSON (APD): No, judge.
THE COURT: Any comment by either side?
MS. JOHNS (ASA): No, sir.
THE COURT: All right. Mr. Babcock, I’m sure you’re aware the law—do
you have a scoresheet on this?
MS. JOHNS: No, sir, there is no scoresheet.
TFIE COURT: If you’ll still fill one out. You are aware the law' requires you
to be sentenced to life in prison on this charge, and you are sentenced to that
at this time.
(Exhibit B, pgs. 8-9, See Exhibit C, Judgment and Sentence).
2

Al

On June 1, 1998, defense counsel filed a Notice of Appeal from the May 29th
judgment and sentence alleging as error “the trial courts [sic] prejudicial errors m
the proceeding below” (See Exhibit D, Notice of Appeal). In appellate case
number: 98-02165, appellate counsel filed the Petitioner’s first appellate brief with
the Clerk of the Second District Court of Appeals on July 14, 1999. (Exhibit D,
Docket Statement for Babcock v. State).
On appeal, appellate counsel did not brief the issue of the trial court’s
erroneous belief that it was required to sentence the Petitioner to anything other
than imprisonment; nor did counsel address the trial court’s failure to receive and
consider a presentencing investigation report prior to sentencing and to conduct the
individualized sentencing hearing required by Fla. R. Criin. P. 3.720(b).
On January 12, 2000, the appellate Court issued a silent per curiam opinion
affirming the May 29, 1998, judgment and sentence. Babcock v. State. 752 So.2d
604 (Fla. 2nd DCA 2000). Mandate issued on January 27, 2000.
On May 11, 2000, the Florida Supreme Court published its opinion in
Maddox v. State. 760 So.2d 89 (Fla. 2000), to resolve the conflict issue of whether
any unpreserved errors relating to sentencing can be raised on direct appeal in light
of the adoption of section 924.051, enacted as part of the Criminal Appeal Reform
Act ol 1996 (the Act), and whether unpreserved sentencing errors should be
corrected in those noncapital criminal appeals filed in the window period between
3

AS

the effective date of the Act and the effective date of the amendments to rule
3.800(b) in Amendments to Florida Rules of Criminal Procedure 3.111(e) and
3.800 and Florida Rules of Appellate Procedure 9.020(h). 9.140, and 9.600. 761
So.2d 1015 (Fla. November 12, 1999Khereinafter Amendments II). Id. at 94.
In Maddox, the Supreme Court ruled that section 924.051(3) specifically
gives defendants the right to raise, and appellate courts authority to correct,
fundamental sentencing errors on direct appeal:
“We conclude that nothing in the Act or our prior jurisprudence prevents appellate
courts from addressing certain unpreserved sentencing errors on direct appeal.
Thus, in those certain cases where the appellant’s first appellate brief was filed
before our recent enactment of rule 3.800(b) in Amendments II, we approve... that
a narrow class of unpreserved sentencing errors can be raised on direct appeal as
fundamental error.” Maddox, 760 So.2d at 94-95.
“[F]or those defendants who did not have the benefit of our recently
promulgated amendment to rule 3.800(b) in Amendment II. during this window
period the appellate courts should continue to correct sentencing errors that
constitute fundamental error. To hold otherwise would neither advance judicial
efficiency nor further the interests of justice.” Id. at 98.

In Bain v. State, 730 So.2d 296 (Fla. 2nd DCA 1999), approved, Maddox v.
State, 760 So.2d 89 (Fla. 2000), the Court stated, “under the Criminal Appeal
Reform Act our jurisdiction to review a sentence may be founded on an allegation
either of a preserved sentencing error or of an unpreserved fundamental sentencing
error.” 730 So.2d at 304.

4

AH

The circumstances of Petitioner’s case satisfy these requirements. This Court
has jurisdiction to correct the sentencing error in this case based on the Petitioner’s
allegation of fundamental error, as the Petitioner’s first appellate brief was filed
during the window period after the enactment of the Act but before the adoption of
the procedural rules promulgated in Amendments II. Maddox. 760 So.2d at 98-99;
Bain. 730 So.2d at 304.

POSTCONVICTION PROCEEDINGS
On November 29, 2001, Petitioner filed a Rule 3.850 motion for
postconviction relief with the clerk of this court. In this motion. Petitioner alleged
nine instances of ineffective assistance of trial counsel. Following an evidentiary
hearing on limited grounds, the trial court entered a final order denying Petitioner’s
rule 3.850 motion. On May 9, 2003, in appellate court case number: 2D02-4846,
the Second District Court of Appeal entered a silent order per curiam affirming the
trial court’s order denying Petitioner’s rule 3.850 motion. See Babcock v. State.
853 So.2d 414 (Fla. 2,ld DCA 2003)(Table).
Due to having previously filed a rule 3.850 motion, subsection (c)(5)
requires the Petitioner to explain why the claim in the present motion was not
raised in the former motion. “[I]f a previous motion or motions have been filed, the
reason or reasons the claim or claims in the present motion were not raised in the

5

A16

r

nil

former motion or motions.” Rule 3.850(C)(5), Florida Rules of Criminal Procedure
'I
!

(2019). _

i1!'

In this case, the reason the present claim was not raised in the former motion

I

is because “A motion to vacate a sentence that exceeds the limits provided by law

;r

r

may be filed at any time.” Rule 3.850(b), Florida Rules of Criminal Procedure

!l

(2019).
The general rule in Florida is that when a sentence is within statutory limits,
::

it is not subject to review by an appellate court. The only exception is “where the
facts establish a violation of a specific constitutional right during sentencing.”
Howard v. State , 820 So.2d 337, 339-340 (Fla. 4th DCA 2002); See also, Branton
v. State, 187 So.3d 382, 385 (Fla. 5th DCA 2016).
,

Where “the sentencing error can cause or require a defendant to be
incarcerated or restrained for a greater length of time than provided by law in the

!

absence of the sentencing error, that sentencing error is fundamental and endures
and petitioner is entitled to relief in any and every legal manner possible, viz: on
direct appeal although not first presented to the trial court, by postconviction relief
'

under 3.850, or by extraordinary remedy.” Reynolds v. State, 429 So.2d 1331,
1333 (Fla. 5th DCA 1983).
In the present motion, the Petitioner shows that the sentence imposed by this

!
I

court exceeds the limits provided by the constitution or laws of the United States or

6

AW

former motion or motions.” Rule 3.850(C)(5), Florida Rules of Criminal Procedure
(2019). _
In this case, the reason the present claim was not raised in the former motion
is because “A motion to vacate a sentence that exceeds the limits provided by law
may be filed at any time.” Rule 3.850(b), Florida Rules of Criminal Procedure
(2019).
The general rule in Florida is that when a sentence is within statutory limits,
it is not subject to review by an appellate court. The only exception is “where the
facts establish a violation of a specific constitutional right during sentencing.”
Howard v. State , 820 So.2d 337, 339-340 (Fla. 4th DCA 2002); See also, Branton
V. State, 187 So.3d 382, 385 (Fla. 5th DCA 2016).
Where “the sentencing error can cause or require a defendant to be
incarcerated or restrained for a greater length of time than provided by law in the
absence of the sentencing error, that sentencing error is fundamental and endures
and petitioner is entitled to relief in any and every legal manner possible, viz: on
direct appeal although not first presented to the trial court, by postconviction relief
under 3.850, or by extraordinary remedy.” Reynolds v. State, 429 So.2d 1331,
1333 (Fla. 5th DCA 1983).
In the present motion, the Petitioner shows that the sentence imposed by this
court exceeds the limits provided by the constitution or laws of the United States or

6

AW

the State of Florida. The Petitioner shows that the sentencing error in this case can
cause or require him to be incarcerated or restrained for a greater length of time
than provided by law in the absence of the error. Thus, under rule 3.850 (b), the
Petitioner may file the present motion to vacate his sentence at this time.
ARGUMENT
Petitioner argues that he was unlawfully deprived of his due process liberty
interests as a direct result of the trial court’s erroneous belief that it was required to
sentence the Petitioner to prison as a capital felony offender, even though the
decision to sentence the Petitioner as such an offender under §775.082(1) was
discretionary; the act of pronouncing sentence without ordering a presentence
investigation report and conducting an individualized sentencing hearing
undermined the lawTulness of the sentence imposed; and this sentencing error is
both patent and serious and should be corrected as fundamental error.
At sentencing, the record in this case shows the trial judge believing that the
Petitioner w'as required to be sentenced to life imprisonment for the offense of
capital sexual battery (Exhibit B, pgs. 8-9). This was fundamental error. See:
§924.051(1 )(a), Fla. Stat. (1997).
POINT ONE: Section 948.01 provides for the Petitioner the. imposition of the life
sentence called for by §775.082( 1) in the discretion of the trial judge only after the

7

A I2_

question of the probation of the Petitioner has been heard and determined by the
court.
Except for an offense punishable by death, §948.01 provides the sentencing
court an alternative, community-based method to punish the offender in lieu of
incarceration. In relevant part, §948.01 states:
“(1) Any state court having original jurisdiction of criminal actions
may at a time to be determined by the court, with or without an
adjudication of the guilt of the defendant, hear and determine the
question of the probation of a defendant in a criminal case, except for
an offense punishable by death, who has been found guilty by the
verdict of a jury, has entered a plea of guilty or a plea of nolo
contendere, or has been found guilty by the court trying the case
without a jury...
(2) If it appears to the court upon a hearing of the matter that the
defendant is not likely again to engage in a criminal course of conduct
and that the ends of justice and the welfare of society do not require
that the defendant presently suffer the penalty imposed by law, the
court, in its discretion, may either adjudge the defendant to be guilty
or stay and withhold the adjudication of guilt. In either case, the court
shall stay and withhold the imposition of sentence upon such
defendant and shall place the defendant upon probation...
(3) If, after considering the provisions of subsection (2) and the
offender’s prior record or the seriousness of the offense, it appears to
the court in the case of a felony disposition that probation is an
unsuitable dispositional alternative to imprisonment, the court may
place the offender in a community control program as provided in s.
948.10.” section 948.01(1 )-(3), Fla. Stat. (1997)7(e.s.).
In Hicks v. Oklahoma. 447 U.S. 343 (1980), the United States Supreme
Court ruled that where a State has provided for the “imposition of criminal
punishment in the discretion of the trial [judge], it is not collect to say that the

8

A\±>

defendant’s interest in the exercise of that discretion is merely a matter of state
procedural law.” LcL at 346.
Eight justices agreed that the defendant in such a case “has a substantial and
legitimate expectation that he will be deprived of his liberty only to the extent”
provided for by state law, and that such an interest is constitutionally protected.
Ibid.
In this case, Florida Statutes §948.01 provides for the imposition of criminal
punishment in the discretion of the trial judge, and its provisions apply to the
Petitioner whose offense is not punishable by death.1 It directs the judge to hear
and determine the question of the supervision of the Petitioner, and it gives the
court authority to suspend the imposition of sentence and place the Petitioner in a
program of community supervision upon such terms and conditions as the court
may require.
Pursuant to Hicks, supra, the Petitioner has a substantial and legitimate
expectation in §948.01 to be deprived of his liberty only after the question of his

See Ch. 59-130, §1, Laws of Fla. (amending §948.01(1) to extend the availability
of community supervision to the defendant whose offense is punishable by life
imprisonment.);c.f., State v. Taylor, 9 So.2d 708 (Fla. 1942)(“In our opinion a
court is without authority [under §948.01] to ‘hear and determine the question of
probation’ of a defendant who has been found guilty of murder in the second
degree, a crime which under the statute shall be punished by ‘imprisonment in the
state prison for life, or for any number of years not less than twenty years.’ This
authority is given courts of original jurisdiction ‘except for an offense punishable
by death or life imprisonment.’”) See, §948.01(1), Fla. Stat. (1941).
9

AIM

placement in a community-based program has been heard and determined by the
trial judge. In other words, the Petitioner has a fundamentally protected liberty
interest in §948.01 to satisfy the propriety of his placement in a program of
community supervision. To conclude otherwise would be a denial of due process
of law guaranteed to the Petitioner by the Fourteenth Amendment. Hicks, 477 U.S.
at 346; see also Hickerson v. Maagio, 691 F.2d 792 (5th Cir. 1982).
POINT TWO: The opinion in Scales v. State, 603 So.2d 504 (Fla. 1992), applies in
this case to prohibit the sentencing language in §775.082(1), Fla. Stat. (1997), from
absolutely precluding the trial court from exercising its discretion in §948.01 to
withhold the sentence of life imprisonment and order a program of community
supervision for the offense of capital sexual battery.
Section 775.082(1) provides:
“(1) A person who has been convicted of a capital felony shall be
punished by death if the proceeding held to determine sentence
according to the procedure set forth in s. 921.141 results in a
determination that such person shall be punished by death, otherwise
such person shall be punished by life imprisonment and shall be
ineligible for parole." §775.082(1), Fla. Stat. (1997).
As written, this section provides that the offense of capital sexual batten7 is
punishable by death. In Buford v. State, 403 So.2d 943 (Fla. 1984), however, the
Supreme Court held that the penalty of death for capital sexual battery violates the
Eighth Amendment.

10

A L5

Following Buford, the maximum sentence for capital sexual battery became
life imprisonment with the possibility of parole after twenty-five years. See Rusaw
v. State, 451 So.2d 469, 470 (Fla. 1984)(“Death is no longer permissive for the
sexual battery described in subsection §794.011(2), but life imprisonment with a
twenty-five minimum is.”).
In 1995, the Legislature eliminated the possibility of parole for convictions
of capital sexual battery. See Ch. 95-294, §4, at 2718, Laws of Fla. Thus, the
statute now reads that a person convicted of capital sexual battery “shall be
punished by life imprisonment and shall be ineligible for parole.” §775.082(1), Fla.
Stat. (1997).
In Scates v. State, 603 So.2d 504 (Fla. 1992), the defendant .was convicted
under §893.13(1 )(e)(l), Fla. Stat. (1989), of purchasing cocaine within 1,000 feet
of a school. Section 893.13(1 )(e)(l) provided for a minimum term of imprisonment
of three years. However, Scates was sentenced to two years’ probation and ordered
to undergo drug rehabilitation pursuant to §397.12, Fla. Stat. (1989). In upholding
this sentence, the supreme court held that “trial judges may refer a defendant
convicted under section 893.13(1 )(e)(l) to a drug abuse program pursuant to
section 397.12 rather than impose a minimum three-year sentence,” Scates. 603
So.2d at 506.

11

A\Ld

In reconciling the requirements of §893.13(1 )(e)(i) to impose a three-year
sentence with the mandate of §397.12 to find alternatives to prison for violations of
chapter 893, the supreme court began its analysis with the “principle that, where
criminal statutes are susceptible to differing constructions, they must be construed
in favor of the accused.” Id. at 505.
In the Petitioner's case, the statutes at issue are also susceptible to differing
constructions; therefore, this Court must reconcile the requirements of §775.082(1)
with the mandate of §948.01(1) to mean that a trial court may properly use
community-based methods to punish the Petitioner in lieu of incarceration. See,
e.g., State v. Winters, 346 So.2d 991 (Fla. 1977).
As stated, section 948.01(1) directs the trial judge to hear and determine the
question of the probation of a defendant; it also provides for the imposition of
community-based sanctions in the discretion of the trial judge, and it applies to the
defendant whose offense is not punishable by death. The statute is intended to
provide a meaningful alternative to prison for individuals capable of rehabilitation,
Lawson v. State, 969 So.2d 222, 229 (Fla. 2007); see also. Ch. 83-131, s. 2(4),
Laws of Fla., pg. 437.
On the other hand, §775.082(1) provides that individuals convicted of
capital sexual battery “shall be punished by life imprisonment and shall be
ineligible for parole.” Of significance, however, is that while this provision does

12

An

call for a sentence of life imprisonment, it does not absolutely preclude trial judges
from exercising their discretion to suspend the sentence and implement nonincarceralive sanctions upon such terms and conditions as the court may require.
This conclusion is directly supported by the Scates opinion in which the
supreme court stated that when a statute does not contain specific language to the
effect of restricting a trial court from withholding a sentence, and the word
mandatory is not used, the omission “implies that the legislature intended a
different construction, allowing trial judges greater discretion in sentencing
decisions...” Spates, 603 So.2d at 505.
What this rule argues in this case is that the sentencing language in
§775.082(1), which does not .contain specific language to the effect of restricting a
trial court from withholding its sentence, and the word mandatory is not used, is
susceptible to differing constructions: one that requires a trial court to impose a
sentence of life imprisonment, and one that does not preclude a trial court from
exercising its discretion to suspend the sentence and implement community-based
sanctions for the individual capable of rehabilitation.
Pursuant to §775.021(1), Fla. Stat. (1997), “[t]he provisions of this
code...shall be strictly construed;'when the language is susceptible to differing
constructions, it shall be construed most favorable to the accused.” §775.021(1),
Fla. Stat. (1997).

13

/US

Known as the rule of lenity, this rule requires that “[a]ny ambiguity or
situations in which statutory language is susceptible to differing constructions must
be resolved in favor of the person charged with an offense.” State v. Byars, 823
So.2d 740, 742 (Fla. 2002). Accordingly, this Court must construe the sentencing
language in §775.082(1) to mean that the trial court was able to hear and determine
the question of the probation of the Petitioner.
This conclusion is also directly supported by the Scates opinion in which the
court stated, “statutes relating to the same subject and having the same purpose
should be construed consistently.” Scates, 603 So.2d at 505. In this case, the
statutes at issue can be construed consistently because they relate to the same
subject and have the same purpose - they both prescribe sanctions for criminal
offenses and they both exist to punish the convicted defendant, deter similar
criminal acts, protect society, and rehabilitate the offender. In other words, “[tjheir
punishment provisions are alternatives to be applied by the trial judge according to
the facts of each case.” Ibid.
In sum, §948.01(1) applies to §775.082 to provide alternatives to prison for
every criminal offense not punishable by death, and this application is not limited
bv any other provision of chapter 948. Thus, §775.082(1) is consistent with
§948.01(1) to allow triad judges greater discretion in sentencing decisions, and this
construction is not limited by any other provision of chapter 775.

14

An

POINT THREE: The phrase “shall be punished by life imprisonment and shall be
ineligible for parole” is permissive sentencing language and does not require a trial
court to automatically impose a sentence of imprisonment for the offense of capital
sexual battery.
Stated plainly, the sentencing language in §775.082(1), when read in
conjunction with other sentencing provisions of Florida’s criminal code, does not
specifically prohibit the application of §948.01 (l)-(3). In so concluding, this Court
must consider the legal effect of the omission from the sentencing language
defined in §775.082(1), of the prohibition, found in numerous other sentencing
statutes, that the proscribed sentence “shall not be suspended, deferred, or
withheld. 5^2

2 See, e.g„ §893.135(1), Fla. Stat. (1997)(involving the offense of trafficking and
providing, “[notwithstanding the provisions of §948.01, with respect to any person
who is found to have violated this section, adjudication of guilt or imposition of
sentence shall not be suspended, deferred, or withheld”); §316.656(1), Fla. Stat.
(1997)(involving the offense of manslaughter resulting from the operation of a
motor vehicle and providing, “[notwithstanding the provisions of §948.01, no
court may suspend, defer, or withhold adjudication of guilt or imposition of
sentence for any law violation of §316.193”); §775.0823, Fla. Stat. (1997)(
involving offenses against justices of the peace and providing, “[notwithstanding
the provisions of §948.01, with respect to any person who is found to have violated
this section, adjudication of guilt or imposition of sentence shall not be suspended,
deferred, or withheld”); see also, §775.087(2) Fla. Stat. (1997)(involving the
reclassification of offenses for the possession or use of a weapon and providing,
“[notwithstanding the provisions of §948.01, adjudication of guilt or imposition of
sentence shall not be suspended, deferred, or withheld”).
15

A ZD

In contrast with each of the other sentencing statutes, the sentencing
language in §775.082(1) stands apart by the fact that these words precluding a
judge from staying, suspending, or withholding the sentence are absent.
Furthermore, and equally important, the restrictive language contained in the other
sentencing statutes cannot be implied against the sentencing language in
§775.082(1), which does not utilize such language. As stated in St. George Island
Ltd, v. Rudd, 547 So.2d 958, 961 (Fla. 1st DCA 1989), “Where the legislature uses
exact words in different statutory provisions, the court may assume they were
intended to mean the same thing.. ..Moreover, the presence of a term in one portion
of a statute and its absence from another argues against reading it as implied by the
section from which it is omitted.”
Since it must be presumed that the legislative inclusion of the proscription
against staying, suspending, or withholding sentence has meaning where it is added
to a penal statute, the exclusion of those words from a similar penal statute
likewise must have meaning, namely, that such stay, suspension, or withholding of
sentence is not precluded.
Second, this Court must also consider the legal effect of the legislature's
1995 amendment eliminating from §775.082(1) the mandatory sentencing
language limiting the minimum term of imprisonment to (25) years for the offense
of capital sexual battery and replacing it with permissive sentencing language

16

Au

setting the maximum term of imprisonment to life. See, Ch. 95-294, §4, at 2718,
Laws of Fla.
Had the legislature intended for the sentencing language in §775.082(1) to
require an automatic prison sentence following the 1995 amendment eliminating
the mandatory sentencing language from the statute, the legislature would have
included language to that effect.3 Thus, unless the capital felony is “punishable bydeath,” the sentencing language in §775.082(1) permits the application of
§948.01(1 )-(3).
Third, and most importantly, this Court must further consider the numerous
court decisions that have repeatedly concluded that notwithstanding the language
“shall be punished by imprisonment” trial judges retain the right under §948.01(1)
to impose community supervision in lieu of incarceration.
For example, §316.192(2)(a), the reckless driving statute, states:
“Any person convicted of reckless driving shall be punished, upon
first conviction, bv imprisonment for a period of not more than 90
days...” §316.192(2)(a), Fla. Stat. (2003). (e.s.).

3 See, e.g., §775.084(4)(c), Fla. Stat. (1997)(setting sentences for violent career
criminals and providing “mandatory minimum terms” of imprisonment);
§790.235(1) Fla. Stat. (1997)(involving the offense of possession of a firearm by a
violent career criminal and stating,”[a] person convicted of a violation of this
section shall be sentenced to a mandatory minimum of 15 years imprisonment”);
§893.135(1) Fla. Stat. (1997)(involving the offense of trafficking in controlled
substances and providing, in numerous provisions, that a person convicted under
this section “shall be sentenced to a mandatory minimum term of imprisonment”)
17

A 22

In Fontevne v. State, 855 So.2d 99 (Fla. 2nd DCA 2003), however, the Court
found that Fonteyne’s one year sentence of probation for reckless driving was
illegal because it exceeded the statutory maximum of 90 days for that offense, hi
at 99. “[A] term of probation is not to exceed the statutory maximum for
incarceration. Therefore, the probationary term of one year could not have
exceeded ninety days.” Ibid.; see also, Whitehead v. State, 685 So.2d 894 (Fla. 5th
DCA 1996).
Also, §790.221, the possession of a short barreled rifle, short barreled
shotgun, machine gun statute, read: “Any person convicted of violating this section
shall be guilty of a felony and upon conviction thereof shall be punished by
imprisonment in the state penitentiary not to exceed 5 years.” §790.221(2), Fla.
Stat. (1977). (e.s.).
In McKendrv v. State. 641 So.2d 45 (Fla. 1994), the Florida Supreme Court
addressed the 1989 amendment to §790.221, Fla. Stat. The court held that the 1989 .
amendment replaced the permissive sentencing with mandatory minimum
sentencing. In reaching its holding, the court examined the legislature’s intent
behind changing the language in the statute:
“Legislative intent is also made clear by the 1989 amendment to
section 790.221(2). Prior to 1989, section 790.221(2) read as follows:
"any person convicted of violating this section is guilty of a felony
and upon conviction thereof shall be punished by imprisonment in the
state penitentiary not to exceed 5 years." Ch. 69-306, 10, at 1 IT0,
Laws of Fla. The 1989 amendment changed the statute to read "upon
18

Alb

conviction thereof he shall be sentenced to a mandatory minimum
term of imprisonment of 5 years." Cli. 89-312, 1, at 2042, Laws of
Fla. The legislature specifically amended the statute to replace the.
permissive sentencing language limiting the maximum term of
imprisonment to five years with mandatory sentencing language
limiting the minimum term of imprisonment to five years. We find the
1989 amendment changing the language of section 790.221(2) to be a
clear and unambiguous expression of the legislature's intent.” (e.s.)
McKendry, 641 So.2d at 47.
In Twining v. State, 380 So.2d 496 (Fla. 2nd DCA 1980), the Court so held
that the six year term of probation for Twining’s possession of a short barreled
shotgun was excessive. “[T]he maximum period of probation which may be
imposed [for a violation of §790.221(1)] is five years.” Id- at 496. “[W]e remand
for the trial court to impose a new term of probation consistent with this opinion.”
Ibid.
Then in State v. Dull 249 So.2d 758 (Fla. 1st DCA 1971), the state charged
Dull with the larceny of two calves. Following his plea of guilty, the trial court
adjudicated Dull guilty and sentenced him to imprisonment in the state prison for a
period of two years, but then stayed execution of this sentence pending
consideration of whether it should be mitigated. Id- at 758.
Then at a subsequent hearing, the trial court set aside the sentence of two
years imprisonment and instead withheld adjudication of guilt and placed Dull on
probation for a period of three years. Id- at 759. At the time, §811.11, Fla. Stat.
(1971), stated: “Whoever commits larceny by stealing any cow, heifer, or calf, the

19

AlH

property of another, shall be punished by imprisonment in the state prison for not
less than two years nor more than five years.” (e.s.)
On appeal the State argued that the trial court’s order mitigating Dull’s
prison sentence was erroneously rendered and required reversal. The appellate
court did not agree:
“With regard to appellee Dull, the trial court set aside its former
adjudication of guilt and placed him on probation under the
supervision of the Parole Commission for a period of three years. This
order was entered within the time prescribed by F.S. §948.01, F.S.A.,
and falls clearly within the authority of the trial judge in the exercise
of his discretion to dispose of a case against a person convicted of a
crime as in his discretion the ends of justice may require.”

“The post-judgment order against appellee Dull setting aside the judgment
of conviction and sentence rendered against him and placing him on probation is
affirmed.” Id. at 760-761.
Next is State v. Williams. 237 So.2d 69 (Fla. 2nd DCA 1970). In this case,
Williams plead nolo contendere to the charge of manslaughter and was placed on
20 years probation, under which he was to pay a $3,000.00 fine and report each
year to spend sixty days in jail. Id. at 69.
On appeal, the State claimed that the sentence of probation was illegal and
assigned the conditions of probation as error. In rejecting this claim, the court of
appeal stated:

20

A 2_S

“[Tjhere is a clear distinction between a sentence on the one hand,
which must be proceeded by am adjudication of guilt, and conditions
of probation on the other hand, which can be imposed independently
of an adjudication of guilt and imposition or pronouncement of
sentence.”
“Appellant urges that this ‘sentence’ be reversed on the authority of Ex parte
Bosso, 41 So.2d 322 (Fla. 1949). We disagree. First, we are not concerned in this
appeal with a sentence but with conditions of probation. Since Fla. Stat. §782.07,
F.S.A., states that one guilty of manslaughter/[sjhall be punished by imprisonment
in the state prison not to exceed twenty years, or imprisonment in the county jail
not to exceed one year, or by fine not exceeding five thousand dollars,’ one would
hardly expect the State to be the party appealing an order sentencing one pleading
nolo contendere to manslaughter to payment of a fine and imprisonment. Secondly,
Bosso is not applicable to the unique facts presented in this case. That case held,
and quite correctly, that when a crime is punishable by fine or imprisonment but
not both, a court cannot sentence one convicted of that crime to payment of the
fine and additionally place him on probation.” Id. at 70.
Finally, in Varnom v. State, 198 So.2d 64 (Fla. 1st DCA 1967), the defendant
was charged by Information with the crime of robbery. At the time, the robbery
statute, §813.011, Fla. Stat. (1966), stated:
“Whoever, by force, violence or assault or putting in fear, feloniously
robs, steals and takes away from the person or custody of another,
money or other property which may be the subject of larceny, shall be

21

AZLa

punished by imprisonment in the state prison for life or for any lesser
term of years, at the discretion of the court.” (e.s.)
Varnom then proceeded to trial, and a jury returned a verdict of guilt. At
sentencing, however, the trial judge pursuant to the provisions of §948.01, Fla.
Stat., withheld adjudication of guilt and placed Varnom under the supervision of
the Florida Probation and Parole Commission for a period of five years. Id. at 64.
On appeal, the appellate court affirmed this disposition. Id.
As these case examples demonstrate, the sentencing language “shall be
punished by imprisonment” has been repeatedly construed by the courts of this
State to mean that a trial court is not precluded from staying and withholding the
imposition of sentence and from placing a defendant on probation pursuant to the
relevant provisions of §948.01.
Under Florida law, when a statutory provision has received definite judicial
construction, a subsequent re-enactment will be held to amount to a legislative
approval of the judicial construction. “The Legislature is presumed to be
acquainted with judicial decisions on the subject concerning which it subsequently
enacts a statute.” Collins lnv. Co. v. Metropolitan Dade County. 164 So.2d 806,
809 (Fla. 1964). Furthermore, when the legislature uses the same word or phrase
on the same subject, even in different chapters of the Florida Statutes, it is
presumed that the legislature intended for them to have the same meaning.
Goldstein v. Acme Concrete Corp.. 103 So.2d 202, 204 (Fla. 1958).
22

Azn

In 1995, the Legislature enacted the amendment to §775.082(1) and used the
exact same words, “shall be punished,” on the exact same subject of sentencing.
Therefore, under Florida law, the legislature was acquainted with the judicial
decisions on the subject and thus approved of a trial court’s use of discretion in
determining whether to impose community-based sanctions for the offense of
capital sexual battery.
In conclusion, the sentencing language “shall be punished by life
imprisonment and shall be ineligible for parole” is neither automatic nor
mandatory; instead, it is permissive sentencing language. It neither requires a trial
judge to impose a sentence of imprisonment nor prevents a trial judge from using
community-based methods to punish the Petitioner in lieu of incarceration.
To conclude otherwise is a denial of due process of law guaranteed to the
Petitioner by the Fourteenth Amendment. Hicks, 477 U.S. at 346.
POINT FOUR: A trial court’s authority to impose community sanctions as an
alternative to incarceration has been applied to the offense of capital sexual battery.
In Washington County Circuit Court case number: 2005-00059, defendant
Johnny A. Easterling was charged with three counts of sexual battery in violation
of §794.01 l(2)(a), Fla. Stat. (2003)(See Exhibit E, Charging Document of Johnny
A. Easterling).

23

Ail

Subsequently, defendant Easterling entered a plea of no contest to all three
counts of capital sexual battery in exchange for 2 years community control,
followed by 13 years probation. The Honorable Allen L. Register, Circuit Court
Judge, accepted this plea on November 7, 2006 (Exhibit E, Plea, Waiver, and
Consent).
On November 20, 2006, Judge Register withheld sentence and placed
defendant Easterling on community control for a period of 2 years to be followed
by thirteen years of probation for all three counts of capital sexual battery (Exhibit
E, Judgment of Guilt and Placing Defendant on Community Control).
This disposition was affirmed by the First District Court of Appeal in
Easterling v. State, 989 So.2d 1285 (Fla. 1st DCA 2008).
POINT FIVE: The sentencing court’s belief that it was required to pronounce the
sentence of life imprisonment is both patent and serious and should be corrected as
fundamental error.
The sentencing language in §775.082(1) is for sentencing judges to have the
power to sentence capital felony offenders to life imprisonment; however, it is not
to require such a sentence in lieu of the imperative to “hear and determine the
question of the probation of a defendant in a criminal case, except for an offense
punishable by death, who has been found guilty by the verdict of a jury.”
§948.01(1), Fla. Stat. (1997).

24

Air

The record in the present case shows the trial judge believing that he was
required to impose the penalty of imprisonment; and therefore, had no discretion to
sentence the Petitioner to anything other than life in prison (Exhibit B, pgs. 8-9).
The trial judge did not hear and determine the question of the probation of the
Petitioner, and there is no indication of whether the disposition would have been
the same had the trial judge understood that sentencing under §775.082(1) was
discretionary.
For this reason, the judicial act of summarily pronouncing sentence without
ordering a presentence investigation report prior to sentencing and without
conducting an individualized sentencing hearing prior to imposing sentence
prejudicially undermined the correctness of the sentence imposed on the Petitioner.
In Maddox v. State. 760 So.2d 89, 98 (Fla. 2nd DCA 2008), the supreme
court concluded that “for those defendants who did not have the benefit of our
recently promulgated amendment to rule 3.800(b) in Amendment II, during this
window period the appellate courts should continue to correct: sentencing errors
that constitute fundamental error. To hold otherwise would neither advance judicial
efficiency nor further the interests of justice.”4

4 See, e.g., Stephens v. State, 974 So.2d 455 (Fla. 2nd DCA 2008), where the court
found that habeas corpus relief was necessary to avoid a manifest injustice
resulting from a fundamental sentencing error due to the trial court’s mistaken
belief that it had no discretion in sentencing defendant as a habitual felony offender
to life in prison for aimed burglary conviction; Wright v. State, 779 So.2d 399, 400
25

A 30

“[I]n order to be considered fundamental, an error must be serious. In
determining the seriousness of an error, the inquiry must focus on the nature of the
error, its qualitative effect on the sentencing process and its quantitative effect on
the sentence.” Maddox, 760 So.2d at 99 (citing Bain v. State, 730 So.2d 296, 304305 (Fla. 2nd DCA 1999)).
Qualitative Effect
In this case, the qualitative effect of the trial court’s decision to immediately
impose a sentence of incarceration did result in a pervasive series of prejudicial
errors that undermined the integrity of the sentencing process.
First, the trial court departed from the essential requirements of Rule
3.710(a) by not referring Petitioner’s case for investigation and recommendation
(Exhibit B, pgs. 8-9). Florida Rule of Criminal Procedure 3.710(a) requires that,
before imposing a sentence other than probation, the sentencing judge must receive
and consider a presentence investigation report prior to sentencing in all cases
where the defendant has not been previously convicted of a felony, and the court
fn. 2 (Fla. 2nd DCA 2000), holding that an improper imposition of a minimum
mandatory term is a sentencing error of the type which may be raised for the first
time on appeal by a defendant who has been sentenced during the “window” period
established in Maddox: see also. Robinson v. State. 762 So.2d 909, 910 fn. 2 (Fla.
2000), where it is unclear from the record whether an unpreserved sentencing error
resulting in a sentence in excess of the statutory maximum was raised for the first
time before the district court, or for the first time before the supreme court, the
error may be raised for the first time on appeal by a defendant sentenced during the
“window” period established in Maddox, and it may be corrected on direct appeal
as fundamental error.
26

Ahl

has discretion in sentencing. Hernandez v. State. 137 So.3d 542, 543-544 (Fla. 41h
DCA 2014); Peer v. State, 983 So.2d 34, 35 (Fla. 1st DCA 2008)(“Rule 3.710(a)
clearly mandates that the trial court first order a PSI before sentencing a first
felony offender to more than probation.”).
The circumstances of Petitioner's case satisfy these requirements. The
Petitioner has no prior felony convictions, and the trial court did not order,
probation but had the discretion to sanction the Petitioner pursuant to the:
applicable provisions of §948.01.
“The puipose of a presentence investigation report is to provide the
sentencing judge with information that is helpful in determining the type of
sentence that should be imposed.” Novel v. State, 191 So.3d 406, 409 (Fla. 2016).
“The rule and justice seem to require that when a sentencing judge has discretion
in sentencing a first felony offender he should look into the background of the
defendant to determine the best sentence for that defendant and society.” Thomas
v. State, 356 So.2d 846, 847 (Fla. 4th DCA 1978).
Absent consideration of a PSI report, the Petitioner was greatly prejudiced in
that a PSI would have revealed evidence that might have prompted a different
result by the sentencing judge. As the supreme court stated in Barber v. State, 293
So.2d 710, 711 (Fla. 1977), “The wording of Florida Rule of Criminal Procedure
3.710 mirrors the similarly of purpose of a pre-sentence investigation and that of a

27

Aht

granting of probation. Either a granting of probation or a pre-sentence investigation
is required. Probation may be used to give the offender a chance to show by his
deeds that lie will live within the law; a pre-sentence investigation is used to
determine if there is a substantial likelihood that the offender will do so. A
favorable pre-sentencing report is generally the basis for granting probation; the
two serve the same function.”
In this case, the trial court did not order a PSI report or examine the pertinent
information required by law prior to sentencing the Petitioner. Thus, absent the
sentencing judge’s review and consideration of a PSI report, the Petitioner was
greatly prejudiced in that the sentencing judge lacked sufficient information to
conclude that community sanctions offered the best means for. punishing and
rehabilitating the Petitioner.
Second, the trial court violated the Petitioner’s due process rights by
imposing sentence without affording the Petitioner adequate time to investigate
and prepare for sentencing.
In sentencing proceedings, “defense counsel must be afforded an adequate
opportunity to investigate and prepare any applicable defense.” Smith v. State, 525
So.2d 477, 479 (Fla. 1st DCA 1988). Adequate time to prepare a defense is a right
that is inherent in the right to counsel. Ibid, (quoting Brown v. State. 428 So.2d 76,
80 (Fla. 1SI DCA 1983)). Timely appointment and opportunity for adequate

28

A

preparation are absolute prerequisites for counsel to fulfill his constitutionally
designed role of seeing to it that available defenses are raised and the prosecution
put to its proof. Cf. United States v. Ash, 413 U.S. 300, 312-313 (1973). If no
actual assistance for the accused’s defense is provided, then the constitutional
guaranty has been violated. United States v. Cronic, 466 U.S. 648, 653-654 (1984).
In the present case , the Petitioner received actual notice of the trial court s
intention to pronounce sentence only minutes after the jury returned its verdict and
immediately before the sentence was actually imposed (Exhibit B, pgs. 6-9). The
notice did not provide any meaningful opportunity for the presentation of
mitigation, allocution, and argument before determination of sentence.
Third, the trial court departed from the essential requirements of Rule 3.720
by not ordering a sentencing hearing and entertaining submissions and evidence by
the parties that are relevant to the sentence.
Florida Rule of Criminal Procedure 3.720 requires the sentencing court, as
soon as practical after determination of guilt and after the examination of any
presentencing report, to order a sentencing hearing. Fla. R. Crim. P. 3.720. Under
this rule, the requirement of a sentencing hearing is mandator}' and may not be
omitted at the discretion of the trial court. Mason v. State, 366 So.2d 171, 172 (Fla.
3rd DCA 1979).

29

In State v. Scott, 439 So.2d 219 (Fla. 1984), the supreme court held:
“Unarguably, the prisoner to be sentenced is facing a critical stage of the criminal
proceedings, whether the sentence to be imposed is the immediate result of
adjudication of guilt or the result of a successful Rule 3.850 challenge. Thus, a
sentencing hearing is mandatory, Florida Rule of Criminal Procedure 3.720, and
the prisoner is entitled to show legal cause why sentence should not be pronounced
and to submit evidence relevant to the sentence. IcF at 221.
Rule 3.720(b) also makes it mandatory for the trial court, at the sentencing
hearing, to entertain “submissions and evidence by the parties that are relevant to
the sentence.” Rule 3.720(b); Mask v. State, 289 So.2d 385 (Fla. 1973)(Rule
3.720(b) “now makes it mandatory for the trial court, at the sentencing hearing, to
receive evidence by the parties of aggravating and mitigating circumstances.’');
Davennort v. State. 787 So.2d 32 (Fla. 2nd DCA 2001)(“ Florida Rule of Criminal
Procedure 3.720(b) provides that at a sentencing hearing, ‘the court shall entertain
submissions and evidence by the parties that are relevant to the sentence. Under
this rule, [the defendant is] entitled to make a statement and present argument to
the court.”).
In Gardner v. Florida. 430 U.S. 349, 358 (1977), the United States Supreme
Court held that “the sentencing process, as well as the trial itself, must satisfy the
requirements of the Due Process Clause.”

30

A2xf>

In Florida, the essence of due process is that fair notice and a reasonable
opportunity to be heard must be given to interested parties before judgment is
rendered. Scull v. State. 569 So.2d 1251, 1252 (Fla. 1993). “Due process envisions
a law that hears before it condemns, proceeds upon inquiry, and renders judgment
only after proper consideration of issues advanced by adversarial parties.” Ibid. As
the court explained in Spencer v. State. 615 So.2d 688, 691 (Fla. 1993), “First, the
trial court should hold a hearing to: (a) give the defendant, his counsel, and the
State an opportunity to be heard; (b) afford both the state and the defendant an
opportunity to present additional evidence; (c) allow both parties to comment on or
rebut information in any presentencing or medical report; and (d) offer the
defendant an opportunity to be heard in person. Second, after hearing the evidence
and argument, the trial court should then...consider the appropriate sentence.’'
In the case at bar, it is undisputed that the Petitioner, and his counsel, Mr.
Steve Watson, made several attempts through the Office of the State Attorney to
defer sentencing under §775.082(1) (See Exhibit A). Canon 3(B)(7), Code of
Judicial Conduct states, “A judge shall accord every person who has a legal
interest in a proceeding, or that person’s lawyer, the right to be heard according to
law.”

Florida Statute §948.01(1) and Florida Rule of Criminal Procedure 3.720(b)
both provide for the Petitioner the right to be heard by the sentencing judge on the

31

AiCo

issue of sentencing. Section 948.01(1) by directing the court to “hear and
determine the question of the probation of a defendant in a criminal case, except
for an offense punishable by death, who has been found guilty by the verdict of a
jury...” and Rule 3.720(b) by requiring the court, at a sentencing hearing, to
“entertain submissions and evidence by the parties that are relevant to the
sentence.”
The Petitioner, therefore, was, and is, entitled by these provisions to fair
notice of the pendency of a sentencing hearing and reasonable opportunity to be
heard on any matter that may have prompted the sentencing judge to impose
community supervision as a suitable alternative to incarceration.
In other words, where Florida law vests the trial court with the authority to
“stay and withhold the imposition of sentence,” §948.01(2), the Petitioner, has a
fundamentally protected liberty interest in demonstrating, through submissions and
evidence, the propriety of his placement in a program of community supervision.
To conclude otherwise would be to prejudicially violate the Petitioner’s right to the
due process of law that is guaranteed him by both the United States and Florida
Constitutions. Cronic, 466 U.S. at 653-654; Flicks, 477 U.S. at 346; Gardner. 430
U.S. at 358; Scull v. State, 569 So.2d at 1252; State v. Scott. 439 So.2d at 221.
Finally, a trial judge’s announced intention to make a specific ruling prior to
hearing evidence or argument is paradigm of judicial bias and prejudice. Weibe v.

32

Am

State, 761 So.2d 469, 473 (Fla. 4th DCA 2000)(quoting Gonzalez v. Goldstein, 633
So.2d 1183, 1184 (Fla. 4th DCA 1994)).
In this case, the trial court announced its intention to sentence the Petitioner
to life in prison. At no point did the trial court hear mitigation, allocution, or
argument prior to imposing sentence. The Petitioner was simply not afforded a
reasonable opportunity to investigate and prepare for sentencing, obtain a PSI
report, present witnesses in his own defense,5 make a mitigating statement, and
most importantly, show himself to be a suitable candidate for placement in a
program of community supervision.
In conclusion, the summary imposition of sentence resulted in a “pervasive
series” of prejudicial errors that undermined the integrity of the sentencing process,
harmfully affected the Petitioner's sentence, and “produce[d] a fundamentally
erroneous result.” Bain v. State, 730 So.2d 296, 304 (Fla. 2nd DCA 1999).
Quantitative Effect
“In most cases, a fundamental sentencing error will be one that affects the
determination of the length of the sentence such that the interests of justice will not
be served if the error remains uncorrected.55 Maddox, 760 So.2d at 100.
In this case, the trial court did not base its sentencing decision on the
exercise of discretion. Instead, it relied on what the court presumed was mandatory
Few rights are more fundamental than that of an accused to present witnesses in
his own defense.” Chambers v. Mississippi. 410 U.S. 284, 302 (1973).

5

33

A *8

language in §775.082(1) to preclude a discretionary decision provided for in
§948.01(1). Section 948.01(1) required the trial judge to consider all of the
sentencing options available to the Petitioner and exercise its discretion
accordingly. The trial court’s erroneous belief that it was required to impose a
sentence of incarceration arbitrarily deprived the Petitioner of his fundamental due
process liberty interests in sentencing.
Under Florida law, “trial judges may not ‘refuse to exercise discretion’ or
‘rely on an inflexible rule for a decision that the law places in the judge’s
discretion’.’’ Aval a v. Scott. 224 So.3d 755, 759 (Fla. 2017)(quoting Barrow v.
State. 27 So.3d 211,218 (Fla. 4th DCA 2010) approved, 91 So.3d 826 (Fla. 2012)).
Instead, “[a] trial court is always required to exercise the discretion afforded it...”:
Fazio v. Russell Bide. Movers. 469 So.2d 844, 845 (Fla. 3,d DCA 1985), and “[i]t
is error for the trial court to refuse or fail to exercise its discretion.” Steinmann v.
State. 839 So.2d 832, 832 (Fla. 4th DCA 2003): e.g.. Hicks. 477 U.S. at 346.
A sentencing court that fails to exercise the discretion afforded it affects the
determination of the type and length of the sentence that may be imposed on a
defendant. For instance;
In Cromartie v. State. 70 So.3d 559 (Fla. 2012), the supreme court held that
a trial judge’s stated policy of always “rounding up” sentences to the next whole

34

year violated due process because it improperly extended the defendant’s sentence
in an arbitrary manner. Id. at 564.
In Cromartie, the trial judge sentenced the defendant to eight years, after
“rounding up” from the 7.8 year minimum. Id- at 560. After the discovery of a
scoresheet error led to resentencing, the court again “rounded up”-but this time
from 6.16 years (the revised scoresheet minimum) to 7 years. Id. at 561.
When pressed about the increased effect of the rounding up, the trial judge
stated, “I round off in years. What can I tell you? That’s just my way. Id. The judge
than shared her view that it really doesn’t make a difference. I mean, I know it
matters to your client, every month and every day he does. But I’m telling you in
the real world whether you give somebody nine years or ten years doesn’t much
matter, you know. It just doesn’t.” Id. at 561.
In other words, instead of making an informed, discretionary decision, the
trial judge relied on an inflexible rule to harmfully affect the determination of the
length of Cromartie’s sentence. This, the supreme court held, was “arbitrary and
violated due process” where Cromartie’s sentence, absent the arbitrary policy of
rounding up, would have been at the “bottom of the guidelines.” Cromartie, 70
So.3d at 563-564.
In Burdick v. State, 594 So.2d 267 (Fla. 1992), the supreme court held that a
trial judge sentencing a defendant under the habitual offender statute was not

35

Aho

required to impose the maximum penalty provided in the statute, but rather had the
discretion to sentence the defendant anywhere up to the maximum sanction. Id. at
269-271
“Because the trial court in this case did not indicate whether it believed it
could in fact decline to impose a life sentence [under the habitual felony offender
statute], we remand for the trial court to reconsider the sentence as within its
discretion.’' Id. at 271.
In Patterson v. State. 206 So.3d 64 (Fla. 4th DCA 2016), the trial court’s
mistaken belief that it was bound by statute to structure the defendant’s sentences
to run consecutively required remand to allow the trial court discretion to run the
sentences concurrently or consecutively.
Patterson was convicted of aggravated batten' for an attack on another
prisoner while incarcerated on a separate carjacking conviction, and the trial court
sentenced him under the PRR statute to a consecutive fifteen year prison term with
463 days credit. Id. at 65.
At the sentencing hearing, the trial court stated that its only discretion was to
give the credit for time served, and agreed with the State that the 15 year PRR
sentence had to be served consecutively with the separate carjacking conviction.
Ibid.

36

/Jhi

On appeal, however, Patterson argued, and the appellate court agreed, that
the trial court erred by mistakenly believing that it lacked the discretion to impose
the sentences concurrently.
The appellate court ruled the PRR statute “does not require the sentence to
be imposed consecutively or concurrently.” Moreover, “No one disputes that the
trial court could sentence the defendant to consecutive sentences. But, it was not
required to do so under §921.16. Rather, that section allows the trial court
discretion to run the sentences concurrently or consecutively.” Id- at 65-66.
Next, in Simpkins v. State. 784 So.2d 1203 (Fla. 2nd DCA 2001), the
appellate court focused on “the guidelines sentence the trial court imposed while
apparently under the belief that it had no discretion to instead sentence Simpkins as
a youthful offender.” Ibid.
Simpkins was convicted of armed robbery, a first degree felony, and flight
from law enforcement. At sentencing, the court asked defense counsel a question
relating to the guidelines; and, counsel mistakenly stated that robbery with a
firearm was a life felony, but asked for leniency in light of Simpkins lack of prior
record and various other circumstances. The trial court then imposed a guidelines
sentence as if Simpkins was ineligible for sentencing as a youthful offender. Id- at
1204.

37

AH2_

On appeal, however, this court reversed the guidelines sentence based on its
finding that Simpkins was in fact eligible for sentencing under the Youthful
Offender Act. “[W]e reverse Simpkins sentence and remand to the trial court for
resentencing in light of its discretion to impose a youthful offender sentence.” Id.
at 1204-1205.
Finally, in Kelly v. State. 727 So.2d 1084 (Fla. 2nd DCA 1999), the Second
District Court of Appeal determined that remand and reconsideration of sentence
was necessary to give the trial court an opportunity to sentence the defendant
without uncertainty about its discretion of whether to impose the minimum
mandatory provision under the habitual violent felony offender statute. Id. at 1085.
Kelly was convicted of robbery with a deadly weapon and sentenced to 30
years with a 15 year minimum mandatory term as a HVFO. On appeal, Kelly
argued, and this court agreed, that the trial court erred by imposing the 15 year
minimum mandatory term under the HVFO statute when it indicated at sentencing
that it had no discretion in deciding whether to impose the minimum mandatory
term.
“A trial court's discretion in sentencing under the .HVFO statute extends to
the determination of whether to impose the minimum mandatory term.” Ibid.
(citing State v. Hudson. 698 So.2d 831, 833 (Fla. 1997)).

38

AHi

“Since the trial court erroneously indicated that it did not have discretion in
imposing the fifteen-year minimum mandatory term, the appellant is entitled to be
resentenced.” On remand, the trial court must “recognize that imposition of the
minimum mandatory provision is discretionary.” Id. at .1085.
As these case laws demonstrate, a sentencing court is always required to
exercise the discretion afforded it, and when that discretion is not exercised, the
error has an obvious affect on the determination of the sentence that may be
imposed on a defendant and on the deprivation of that defendant’s liberty.
Thus, whether the error stems from a trial court’s determination not to
exercise its discretion, as in Cromartie, or a trial court’s determination to impose a
sentence while unaware of its discretion, the error has a quantitative impact on the
deprivation of a defendant’s freedom from bodily restraint.
In Petitioner’s case, the trial court was unaware of its sentencing discretion
and sentenced the Petitioner to life in prison. The consequence of this error could
not be more obvious. A prison sentence is a far more coercive deprivation of the
Petitioner’s liberty and a far more punitive penalty than any non-prison sanction.
See Foucha v. Louisiana. 504 U.S. 71, 80 (1992)(explaining “freedom from bodily
restraint has always been at the core of the liberty protected by the Due Process
Clause.”)., Second, the sanctions of probation and community control are not
incarcerative sentences; instead, they are alternative non-incarcerative forms of

39

AH H

punishment. See §948.001(5), Fla. Stat. (1997)(Probation “means a form of
community supervision requiring specified contact with parole and probation
officers and other terms and conditions as provided in §948.03”); §948.001(2), Fla.
Stat. (1997)(Community control “is an individualized program in which' the
freedom of an offender is restricted within the community, home, or noninstitutional residential placement and specified sanctions are imposed and
enforced.”).
In conclusion, the trial court’s decision in this case to impose a prison
sentence while unaware of its discretion under §948.01(1), to consider the options
of probation and community control, and whether to impose them in lieu of
incarceration, was a significant deprivation of the Petitioner’s fundamental due
process “liberty” interest in sentencing. See, e.g.. State v. Johnson, 616 So.2d 1, 3
(Fla. 1993).
Remand
It is the Petitioner’s prayer that this Honorable Court vacate the Petitioner’s
prison sentence to allow the trial court to properly consider the Petitioner’s
sentence with the knowledge that it has discretion, rather than being of the belief
that it was required to sentence the Petitioner in a particular way.
Under controlling precedent, if a trial court mistakenly believes that it does
not have discretion in sentencing a defendant, and the reviewing court is unable to

40

/IHS

determine from the record whether the trial court would have imposed the same
sentence if it had understood its discretion, then the sentence imposed should be
vacated and the case remanded for the trial court to exercise its sentencing
discretion and consider all sentencing alternatives. Goldwire v. State, 73 So.3d
844, 846 (Fla. 4th DCA 201 l)(quoting Munnerlvn v. State. 795 So.2d 171, 171
(Fla. 4th DCA 2001); Torres v. State. 17 So.3d 1282, 1282-1283 (Fla. 2nd DCA
2009)(citing Hines v. State. 817 So.2d 964, 965 (Fla. 2nd DCA 2002)); Crumitie v.
State. 605 So.2d 543, 544 (Fla. 1st DCA 1992).
The Petitioner's case satisfies these requirements. The trial court mistakenly
believed that it was required to sentence Petitioner to incarceration and there is no
indication in the record of whether the trial court would have imposed the same
sentence had it understood that it had the discretion to sentence the Petitioner
pursuant to the applicable provisions of §948.01, Fla. Stat. (1997).
Accordingly, this Honorable Court should vacate the Petitioner’s sentence to
allow the trial court to properly consider the alternatives of probation and
community- control with the knowledge' that it has discretion, rather than being of
the belief that it is required to sentence the Petitioner in a particular way. See
Burdick v. State. 594 So.2d at 271 (finding that “because the trial court in this case
did not indicate whether it believed it could in fact decline to impose a life

41

A HLa

sentence, we remand for the trial court to reconsider the sentence as within its
discretion); Goldwire, 73 So.3d at 846-847.

CONCLUSION
In the instant motion, the Petitioner has convincingly demonstrated that the
trial court was under no legal obligation to require a sentence of incarceration.
Therefore, reconsideration of sentence would entitle the Petitioner to a reasonable
expectation of imminent release from his present imprisonment.
Under Florida law, probation and community control are valid sentencing
alternatives to imprisonment, §921.187(l)(a), Fla. Stat. (1997), and have been
found by the legislature to “alleviate prison overcrowding while still providing a
sufficient measure of public safety and assuring an element of punishment.” Ch.
83-131, s. 2(4), Laws of Fla., pg. 437.
In this case, however, an informed decision to place the Petitioner in a
program of community supervision is likely only after the trial court receives and
considers evidence that the Petitioner is able to return to the community without
unduly diminishing the punishment appropriate for the crime or unreasonably
compromising public safety.
Reconsideration of the Petitioner’s sentence, therefore, must include a
presentencing investigation report and a de novo sentencing proceeding in which
the trial court is “permitted to consider any and all information that reasonably
42

Ah i

might bear on a proper sentence for a particular defendant, given the crime
committed.” Howard v. State, 820 So.2d 337, 340 (Fla. 4th DCA 2002)(quoting
Wasman v. United States, 468 U.S. 559, 563 (1984)).
In conclusion, the sentencing alternatives of probation and community
control are sentencing options available to the Petitioner, and they are reasonable
expectations of imminent release from prison for individuals capable of
rehabilitation. The Petitioner, therefore, is entitled to demonstrate at a sentencing
hearing that he is capable of rehabilitation upon such terms and conditions as the
court may require.
WHEREFORE, based on the foregoing facts, arguments, and authorities, it
is the Petitioner’s prayer that this Honorable Court vacate his prison sentence and
conduct a de novo resentencing hearing in which to hear and determine the
question of the probation of the Petitioner pursuant to the applicable provisions of
§948.01, Fla. Stat. (1997).
Respectfully submitted,
/s/

Cjd .
K
Roger G. Babcock, DC # 165844

OATH
Under penalties of perjury and administrative sanctions from the Department
of Corrections, including forfeiture of gain time if this motion is found to be

43

AHS

frivolous or made in bad faith, I certify that I understand the contents of the
foregoing motion, that the facts contained in the motion are true and correct, and
that I have a reasonable belief that the motion is timely filed. I certify that this
motion does not duplicate previous motions that have been disposed of by the
court. I further certify that I understand English.

/s/'Ro

Co. CbakociuiK

I abcock, DC # 165844
Rog qJg. B
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing petition
for motion to vacate sentence (with Appendix of Exhibits A through E) has been
delivered to: Clerk of the Court, P.O. Box 3079, Sarasota, Florida 34230-3079;
Office of the State Attorney, 2071 Ringling Blvd. Ste 400, Sarasota, Florida
34237-7000, by placing the same into the hands of institutional mailroom officials
for further delivery by U.S. Mail, postage pre-paid, this 7 day of January 2020.

1

RogerG. Babcock, DC # 165844
Cross City Correctional Institution
568 N.E. 255th Street
Cross City, Florida 32628

i

44

AW

PROVIDED TO
CROSS CITY C.l. ON

IN THE DISTRICT COURT OF APPEAL
FOR THE SECOND DISTRICT
STATE OF FLORIDA

a

MAR 0 3 2021
FOR MAILING

ROGER G. BABCOCK,
Appellant,
vs.

Case No.: 2D20-1797

STATE OF FLORIDA,
Appellee,

MOTION FOR REHEARING, ISSUE AN OPINION PROPER.
CERTIFICATION TO THE SUPREME COURT OF FLORIDA
Appellant, Roger G. Babcock, proceeding pro se, pursuant to Rule 9.330,
Florida Rule of Appellate Procedure (2020), motions this Court to rehear, and set
aside, its disposition rendered on February 19, 2021, and to enter an order granting
Appellant the relief in which he is entitled. In support thereof, Appellant shows the
following:
The trial court cites the case of Buford v. State. 403 So. 2d 943 (Fla. 1981),
for the conclusion that the penalty of imprisonment in §775.082(1), Fla. Stat.
(1997), for the offense of capital sexual battery is automatic upon conviction,
precluding the mandatory language in §948.01(1), requiring the court to hear and
determine the question of the probation of the defendant.

1

A 50

On February 19, 2021, a panel from this Court issued a silent per curiam
opinion affirming the trial court’s order denying Appellant’s motion to vacate
sentence.
On rehearing, it is the Appellant’s position that this panel has overlooked or
misapprehended the Legislature’s specific intent to distinguish the case of Buford
v. State from controlling in the Appellant’s.

Rehearing Point One: The defendant in Buford was statutorily mandated by the
remedial provisions in § 775.082(2) to be automatically sentence to imprisonment
and to the minimum mandatory sentence in § 775.082(1), requiring twenty-five
years incarceration before becoming eligible for parole. The Appellant was not.
In Buford, supra, the Florida Supreme Court held that the penalty of death
for the crime of capital sexual battery violated the Eighth Amendment. At
resentencing, the Court stated:
“The sentence of death imposed for the conviction of sexual
assault is vacated. Section 775.082(1), Florida Statutes,
mandates a punishment of life imprisonment with a requirement
that defendant serve no less than twenty-five years before
becoming eligible for parole. This is an automatic sentence, and
the Court has no discretion. Sufficient factors are present in this
case to create an exception to Florida Rule of Criminal
Pursuant to Appellate rule 9.330(a)(1), the instant motion is timely filed if placed
into the hands of institutional mailroom officials for further delivery by U.S. Mail,
postage pre-paid, on or before March 6, 2021. See Thompson v. State. 761 So.2d
324 (Fla. 2000) (mailbox rule).
2

Asi

Procedure 3.180 requiring the presence of the defendant at
sentencing. See Anderson v. State. 267 So. 2d 8 (Fla. 1972).
The defendant, for the crime of sexual battery upon a child
under eleven years of age, shall be imprisoned for life, with no
eligibility for parole during the first twenty-five years.”
Buford, 403 So. 2d at 954.
In relevant part, s. 775.082, Florida Statutes (1981), reads:
(1) A person who has been convicted of a capital felony shall be
punished by life imprisonment and shall be required to serve no
less than 25 years before becoming eligible for parole unless the
proceeding held to determine sentence according to the
procedure set forth in s. 921.141 results in a finding by the
court that such person shall be punished by death, and in the
latter event such person shall be punished by death.
(2) In the event the death penalty in a capital felony is held to
be unconstitutional by the Florida Supreme Court or the United
States Supreme Court, the court having jurisdiction over a
person previously sentenced to death for a capital felony shall
cause such person to be brought before the court, and the court
shall sentence such person to life imprisonment as provided in
subsection (1).
Florida Statutes § 775.082(1), (2) (1981).
By its express terms, s. 775.082(1) is not a remedial statute. “A remedial
statute is designed to correct an existing law, redress and existing grievance, or
introduce regulations conductive to the public good. “Fonte v. AT&T Wireless
Servs, Inc., 903 So. 2d 1019, 1024 (Fla. 4th DCA 2005) (quoting Adams v.
Wright, 403 So. 2d 391, 394 (Fla. 1981).
Instead, Florida Statutes s. 775.082(1) is a penal statute that defines capital
felonies; it does not contain the word “automatic,” and it is highly unlikely that the
3

A52.

. *

Florida Supreme Court would have deliberately added that word to the statute
where the legislature clearly had not.
Yes, the penalty prescribed by s. 775.082(1), Fla. Stat. (1981), is life
imprisonment, and yes, the phrase “shall be punished by imprisonment” is
permissive sentencing language, McKendrv v. State. 641 So. 2d 45, 47 (Fla. 1994),
while the phrase “shall be required to serve no less than 25 years” is mandatory
sentencing language, but it was neither of these provisions that empowered the
court to declare subsection (1) an “automatic sentence” for the defendant in
Buford.
Otherwise, Buford would never have been sentenced to death at his original
sentencing because this construction of these two penalty provisions would have
automatically precluded it. Clearly, this conclusion was not Legislature’s intent for
the plain meaning of s. 775.082(1), Fla. Stat.
On the other hand, Florida Statutes s. 775.082(2) is a remedial statute. It
exists to assure that a life sentence will be imposed on individuals previously
sentenced to death if capital punishment as a penalty is declared unconstitutional.
As the Supreme Court recently explained in Hurst v. State, 202 So. 3d 40, 65 (Fla.
2016).

2 See, e.g., Stoletz v. State, 875 So. 2d 572, 576 (Fla. 2004) (acknowledging that
the phrase “for not less than 5 years” in s. 322.28(2)(a)(2), Fla. Stat. (1999),
established a mandatory minimum period of license revocation).
4

A S3)

“The State contends that s. 775.082(2) exists only to assure that
a life sentence will be imposed on individuals previously
sentenced to death if capital punishment as a penalty is declared
unconstitutional generally or for any given capital offense. See,
e.g. Atkins v. Virginia, 536 U.S. 304 (2002) (holding capital
for
intellectually
disabled
punishment
persons
unconstitutional); Coker v. Georgia. 433 U.S. 584 (1977)
(holding capital punishment as a penalty for raping an adult
woman violates the Eighth Amendment). We agree with the
State.” (e.s.) Hurst, 202 So. 3d at 65.
Thus, when the court in Buford declared the penalty of death for the crime of
capital sexual battery unconstitutional, it was s. 775.082(2) that required the court
to mandate the penalty of life imprisonment in s. 775.082(1) an “automatic
sentence” for the defendant in Buford.
In conclusion, it is the Florida Legislature that has distinguished the opinion
in Buford from controlling in the Appellant’s case.
First, the Appellant could not have been sentenced to death; and therefore,
the “automatic sentence” in s. 775.082(1) could not have been applied to him.
Second, the phrase “and shall be required to serve no less than 25 years” was
omitted from s. 775.082(1) by the legislature in Ch. 95-294, § 4, at 2718, Laws of
Fla. The Appellant’s crime occurred in 1997. Third, “[w]hen the legislature
amends a statute by omitting words, [courts] presume it intends the statute to have
a different meaning than that accorded it before the amendment.” Capella v.
Gainesville, 377 So. 2d 658, 660 (Fla. 1979). With respect to the statutory phrase
“shall be punished by imprisonment,” the Florida Supreme Court defines its
5

>4.54

meaning as discretionary sentencing language. McKendrv. 641 So. 2d at 47.
Finally, the opinion in Scates v. State. 603 So. 2d 504 (Fla. 1992), is the
controlling authority in the Appellant’s case.

Rehearing Point Two: The Appellant believes that a written opinion by this panel
would provide (1) a legitimate basis for Supreme Court review, and (2) an
explanation for an apparent deviation from prior precedent. See, Florida Rule of
Appellate Procedure, Rule 9.330(2)(D).
As previously noted, the case of Buford v. State. 403 So. 2d 943 (Fla. 1981),
is cited for the conclusion that the penalty of imprisonment prescribed in §
775.082(1), Fla. Stat. (1997), for the offense of capital sexual battery was an
automatic sentence upon conviction, leaving the court with no discretion to hear
and determine the question of the probation of a defendant and reduce the sentence
under the provisions of § 948.01(1), Fla. Stat. (1997).
In contrast, the Appellant, on rehearing in the trial court, on appeal before
this panel, and now on rehearing before this panel, has tirelessly demonstrated that
the only way the opinion in Buford can be construed to have any precedents in this
case is by (1) disregarding the legislature’s removal of the mandatory sentence
language in s. 775.082(1), or (2) the misapprehension of the Buford court’s use
(albeit sub silencio) of s. 775.082(2), which required the court to automatically
6

Ass

sentence the defendant in Buford to imprisonment, or (3) permitting the holding in
Buford to supersede, and directly conflict with, the holding in Scates v. State. 603
So. 2d 504 (Fla. 1992), which controls the outcome of the Appellant’s case.
Thus, the scope of the holding in Buford is the deciding factor in this case.
For this reason, the. Appellant believes that a written opinion by this panel on the
lawfulness of the applicability of Buford to the facts of his case would provide
either a legitimate basis for Supreme Court review or an explanation for the
apparent deviation from long-standing precedent that prohibits courts, under
fundamental principles of separation of powers, from invoking limitations or
judicially altering the wording of statutes where the legislature clearly has not done
so. See, Commercial Coating Com, v. Dept, of Envtl. Regulation, 548 So. 2d 677,
679 (Fla. 3rd DCA 1989) (“In construing statutes [,] courts may not invoke a
limitation or add words to the statute not placed there by the legislature.”)
Rehearing Point Three: I express a belief, based on a reasoned and studied
professional judgment (although pro se), that this appeal requires immediate
resolution by the Supreme Court and (a) is of great public importance, or (b) will
have a great effect on the administration of justice throughout the state. See,
Florida Rule of Appellate Procedure, Rule 9.125(e)(3).
In 1995, the Florida Legislature eliminated the mandatory sentencing
language from s. 775.082(1) for the offense of capital sexual battery. Although the
7

A5te

amended statute does provide for a penalty of life imprisonment upon conviction, it
does not contain any language to the effect of restricting trial judges from the
mandate to hear and determine the question of the probation of the Appellant or
from exercising their discretion to reduce the sentence under § 948.01(1), Fla. Stat.
(1997), for an offense not punishable by death.
For this reason, the judicial act of summarily imposing sentence without
ordering a presentence investigation report prior to sentencing and without
conducting an individualized sentencing hearing prior to imposing sentence
prejudicially undermined the correctness of the sentence imposed on the Appellant
and unlawfully deprived him of the due process liberty interests in sentencing that
the Due Process Clause and the opinion in Hicks v. Oklahoma, 447 U.S. 343
(1980), entitles him.
In light of the foregoing, this court should certify the following question to
the Florida Supreme Court for immediate resolution:
“Do the provisions of section 948.01,
Florida Statutes (1997), authorize the
imposition of a sentence other than as
provided in section 775.082(1), Florida
Statutes (1997)?”

WHEREFORE, based on the foregoing facts, arguments, and authorities,
Appellant prays this court to set aside its prior disposition and to enter an Order
granting Appellant the relief to which the law entitles him.
8

A si

Respectfully submitted,

ftoo

Babcock

Roger G. Babcock #165844

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that I placed this document in the hands of prison
officials for mailing to: Clerk of the Court, P.O. Box 327, Lakeland, Florida
33802-0327; Office of the Attorney General, Criminal Appeals Division, 3507 E.
Frontage Rd., Ste. 200, Tampa, Florida 33607-7013, on this -^>

day of March

2021.

/s/fio6gT (-£>.
RogCT G. Babcock, DC # 165844
Cross City Correctional Institution
568 N.E. 255th Street
Cross City, Florida 32628

9

ROBERT LEWIS BUFORD, Appellant, v. STATE OF FLORIDA, Appellee
Supreme Court of Florida
403 So. 2d 943: 1981 Fla. LEXIS 2764
No. 54010
__ ____________
July 23,1981
Editorial Information: Subsequent History
Rehearing Denied October 14, 1981.
Editorial Information: Prior History
An Appeal from the Circuit Court in and for Polk County, William A. Norris, Jr., Judge - Case No.
CF77-2715.
Counsel

Jack O. Johnson, Public Defender, and James R. Wulchak and Douglas
A. Lockwood, Asst. Public Defenders, Bartow, for appellant.
Jim Smith, Atty. Gen., and Charles Corces, Jr. and Richard G
Pippinger, Asst. Attys. Gen., Tampa, for appellee.
Judges: Before ADKINS, J. SUNDBERG, C.J., BOYD, OVERTON and ALDERMAN, JJ„ Concur
ENGLAND, J., Concurs as to the conviction and dissents as to the sentence.
CASE SUMMARY
PROCEDURAL POSTURE: Defendant appealed a judgment of the Circuit Court, Polk County (Florida),
convicting him of murder in the first degree, sexual battery upon a child under eleven years of age, and
burglary with intent to commit a sexual battery and sentencing him to death.Murder conviction and death
sentence were proper because ample evidence supported the jury determination of premeditation, and the
trial judge was not required to request a presentence investigation before sentencing defendant.
OVERVIEW: Defendant was convicted of murder, sexual battery upon a child under eleven years of age,
and burglary with intent to commit a sexual battery, and defendant was sentenced to death. Defendant
appealed. The court ruled that there was ample evidence from which the jury could have founa
premeditation to commit murder. Further, the court held that if the evidence showed that the accused had
ample time to form a purpose to kill the deceased and for the mind of the killer to become fully conscious
of his own design, it was deemed sufficient in point of time in which to enable the killer to form a
premeditated design to kill. Also, the court found that where a person struck another with a deadly weapon
and inflicted a mortal wound, the very act of striking such person with such weapon in such manner was
sufficient to warrant a jury in finding that the person striking the blow intended the result which followed.
The court affirmed the judgment convicting and sentencing defendant, concluding that the trial judge was
not required to request a presentence investigation before sentencing defendant.
OUTCOME: The judgment convicting and sentencing defendant to death for murder was affirmed, and
the death sentence imposed for the sexual assault conviction was vacated, where murder in the first
degree through premeditation required proof of premeditated design to kill, there was ample evidence that
defendant acted with premeditation, and the court had no discretion in sentencing defendant for the sexual

2flcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

<

assault conviction.
LexisNexis Headnotes
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > General Overview
If the evidence shows that the accused had ample time to form a purpose to kill the deceased and for the
mind of the killer to become fully conscious of his own design, it will be deemed sufficient in point of time
in which to enable the killer to form a premeditated design to kill.
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > General Overview
Criminal Law & Procedure > Criminal Offenses > Weapons > Use > Simple Use > General Overview
Where a person strikes another with a deadly weapon and inflicts a mortal wound, the very act of striking
such person with such weapon in such manner is sufficient to warrant a jury in finding that the person
striking the blow intended the result which followed.
Criminal Law & Procedure > Accusatory Instruments > Multiplicity
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > First-Degree Murder >
Penalties
Criminal Law & Procedure > Sentencing > Consecutive Sentences
Where the same act or transaction constitutes a violation of two distinct statutory provisions, the test to be
applied to determine whether there are two offenses or only one, is whether each provision requires proof
of the facts which the other does not.
Constitutional Law > Bill of Rights > Fundamental Rights > Procedural Due Process > Double
Jeopardy
Criminal Law & Procedure > Double Jeopardy > Attachment Jeopardy
Criminal Law & Procedure > Double Jeopardy > Double Jeopardy Protection > General Overview .
Criminal Law & Procedure > Double Jeopardy > Double Jeopardy Protection > Multiple
Punishments
The double jeopardy clause protects against multiple punishments for the same offense.
Criminal Law & Procedure
Criminal Law & Procedure
Criminal Law & Procedure
Criminal Law & Procedure
General Overview
Criminal Law & Procedure

>
>
>
>

Criminal Offenses
Criminal Offenses
Criminal Offenses
Criminal Offenses

> Sex Crimes > Sexual Assault > General Overview
> Homicide > Murder > Capital Murder > Penalties
> Sex Crimes > General Overview
> Sex Crimes > Sexual Assault > Abuse of Adults >

> Sentencing > Capital Punishment > Cruel & Unusual Punishment

Under Fla. Stat. Ann. § 794.011 (2), whoever being eighteen years or older commits a sexual battery upon
a person eleven years of age or younger, is guilty of a capital felony.
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > General Overview
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > First-Degree Murder >
General Overview
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > First-Degree Murder >
Elements
Criminal Law & Procedure > Criminal Offenses > Homicide > Murder > First-Degree Murder >

2flcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

AUb

■ i-

Penalties
Criminal Law & Procedure > Sentencing > Capital Punishment > General Overview
Under Fla. Stat. Ann. § 782.04, murder in the first degree is defined as the unlawful killing of a human
being when perpetrated from a premeditated design to effect the death of the person killed, or when
committed by a person engaged in the perpetration of, or in the attempt to perpetrate, any sexual battery.
Criminal Law & Procedure > Sentencing > Imposition > Factors
In order to sustain a sentence of death following a jury recommendation of life, the facts suggesting a
sentence of death should be so clear and convincing that virtually no reasonable person could differ.
Criminal Law &
Criminal Law &
Criminal Law &
Criminal Law &

Procedure > Sentencing > Appeals > General Overview
Procedure > Sentencing > Capital Punishment > Bifurcated Trials
Procedure > Sentencing > Appeals > Capital Punishment
Procedure > Sentencing > Capital Punishment > General Overview

In reviewing the propriety of a death sentence, the court must weigh heavily the advisory opinion of life
imprisonment by the sentencing jury. The facts justifying the death sentence must be clear and convincing
in order to overrule the jury's recommendation.
Criminal Law & Procedure > Sentencing > Imposition > Factors
Criminal Law & Procedure > Trials > Judicial Discretion
Criminal Law & Procedure > Postconviction Proceedings > Parole
Fla. Stat. Ann. § 775.082(1) mandates a punishment of life imprisonment with a requirement that
defendant serve no less than 25 years before becoming eligible for parole. This is an automatic sentence,
and a trial court has no discretion.
Opinion
Opinion by:

ADKINS
Opinion

{403 So. 2d 844} ADKINS, Justice.
This is a direct appeal from a judgment adjudging defendant guilty of murder in the first degree and
guilty of sexual battery upon a child under eleven years of age, and imposing two sentences of death.
Defendant was also adjudged guilty of burglary with intent to commit a sexual battery and sentenced
to a term of years.
In the early morning hours of Sunday, November 6, 1977, Lewis Wright, father of the victim, fell
asleep on the living room sofa while he and his chiidren were watciiing television. His children were on
a pallet on the living room floor. Wright awakened about 2:30 or 3:00 o'clock a. m., turned off the
television, and went to his bedroom He did not notice if all of his children were still sleeping on the
pallet. On his way to the bedroom he observed that the back door of the house was open, but
assumed that the children's grandmotner had visited the house while he was sleeping and had exited
through the back door.

2fl cases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

AM

f'

{403 So. 2d 945} Lewis Wright awoke again about 7:00 o'clock a. m. and noticed that the victim, his
seven-year-old daughter, Toni, was missing. Wright notified police; shortly thereafter the victim's’ body
was discovered next to a nearby church. She was lying on her back in a flower bed, with her dress
pulled up around her chest and her underpants a short distance away. There were injuries to her head
and dried blood on her head and face. Pieces of a shattered and blood-stained concrete block were
found nearby.
At approximately 3:00 o'clock a. m. on Sunday, November 6, 1977, the defendant returned to his
father's home where he was greeted by his sister, Annette Buford. She observed him breathing hard,
as if he had just been running and saw him carrying his t-shirt and tennis shoes. He had white
oxydized paint on his bare back and appeared to be drunk. Defendant told his sister if anyone came
looking for him to say that he had been at home since 11:00 o'clock p. m. In a few moments
defendant broke down and stated that he might have killed a lady with a brick. He started to implicate
a person known as "Fat Boy", but immediately stopped, saying he was not going to involve anyone,
else.
While at his father's home later in the day, the defendant talked both of leaving home and of turning
himself over to police. On Monday night defendant went to the police station, after his sister had talked
with police about his role in the crime. He was arrested for murder, sexual battery, and burglary with
intent to commit sexual battery. After being advised of his legal rights, defendant signed a written
waiver of these rights and blurted out, "I did it." He was again advised of his rights in the interrogation
room, and he again waived these rights. In his statement defendant said he broke into Wright's housed
through a back window. Upon entering, he saw the girl lying there, picked her up, and carried her out
the back door. He took her to the church area, had her lie down and remove her clothes. He removed
his clothing and then inserted his finger into her vagina. He did not move his finger; he just put it in
and later took it out. He admitted penetration with his penis. When the victim started screaming, the
defendant picked up a concrete block and dropped it twice on the victim’s head. The defendant said
he was not trying to kill her but to stop her from screaming. The victim had recognized the defendant.
After the statement was concluded, the defendant signed a consent form to search his room at his
father's house for the jeans he had been wearing on the night of the incident. These jeans were
recovered. A lab analysis of a blood spot on the jeans indicated that it was of the same type as the
victim's blood.
With defendant's consent, the officers secured blood and hair samples from him. While the doctor
was examining defendant and taking samples, the doctor pointed out various cuts and scratches on
defendant's body. When the doctor was noting a set of scratches, the defendant said, "Those were
not made by the little one."
A pubic hair that was discovered in the victim's vagina was consistent in characteristics with the
sample taken from the defendant. Both the pubic hair found on the decedent and the sample taken
from the defendant contained an unusual "starchy" substance. The child was too young to have pubic
hair of her own; she was only seven years old.
At trial, the defendant testified that although he had participated in the sexual battery, a man known as
"Fat Boy" had raped and killed Toni. Defendant said he refused to climb inside the Wright home
because he was known by them. His testimony was that Fat Boy climbed through the window while
defendant stood outside. When Fat Boy did not return for a while, defendant left. A few minutes later
defendant met Fat Boy again. This time Fat Boy was carrying Toni Wright. Upon questioning her, Toni
said that she knew defendant but did not know Fat Boy. Fat Boy carried Toni to the church area and
commanded her to lie down. Defendant admitted having sexual intercourse with Toni while Fat Boy

2flcases

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

A LdZ

watched. Toni did not {403 So. 2d 946} scream while defendant was on top of her. Defendant got
dressed and was planning to leave when Fat Boy commenced sexual intercourse with Toni. Toni
started screaming. Defendant turned around to face them and saw Fat Boy drop a concrete block on
the girl's head. Fat Boy picked up the brick to drop it again and defendant charged at him to prevent it.
Fat Boy threw defendant against the wall and dropped the brick again. Fat Boy left when defendant
refused to allow him to go home with him.
The police officers learned about Fat Boy and his alleged involvement in the incident from the
defendant's sister before the trial took place. After an investigation, Fat Boy was eliminated as a
suspect by virtue of an alibi. Defendant was charged by indictment with the offenses of first-degree
murder, capital sexual battery, and burglary with intent to commit a sexual battery. The jury found
defendant guilty on all three counts. The case then proceeded into the penalty phase of the bifurcated
trials. The jury recommended to the court that it impose a life sentence on both the murder and sexual
battery convictions. The trial court then made the following findings of fact:

In making the following findings of fact and conclusions of law the Court has taken into
consideration only the testimony produced at trial and no other factors.
As to Count One of the Indictment wherein defendant was convicted of First Degree Murder the
Court makes the following findings of fact:
1. As an aggravating circumstance, the capital felony, that is, the murder of Toni Annette Wright, a
black female, age seven (7) years, was committed while the defendant, Robert Lewis Buford, was
engaged in the commission of the crime of sexual battery. F.A. 921.141(5)(d). The evidence is
conclusive that the crime of sexual battery was complete and that sufficient penetration occurred.
The defendant's free and voluntary statement to law enforcement officers supports this finding
together with his testimony in his own behalf during the trial. The defendant attempted to repudiate
his previous confession to create an accomplice by the name of "Fat Boy", however, the Court
specifically rejects this testimony as being an untrue and a total fabrication.
2. As a further aggravating circumstance the Court finds that the capital felony was especially
heinous, atrocious and cruel. F.A. 921.141 (5)(h). The testimony amply supports a finding that this
seven (7) year old child was abducted from her home, while asleep by a nineteen (19) year old
adult male, that she was taken to a secluded spot where the defendant brutally sexually assaulted
her. After he had fulfilled his lustful desires and ascertained that the victim would be in a position
to identify him, the defendant snuffed out the life of this child by crushing her head with a concrete
block dropped at heights from at least waist high. The testimony of the pathologist, Dr. Robert
Smith, reveals at least three (3) separate crushing wounds and the defendant "admits" to dropping
the thirty-two (32) pound concrete block on the victim's head twice. The Court specifically rejects
as untrue and as a fabrication, the defendant's testimony that the victim was killed by this so
called accomplice "Fat Boy". Dr. Robert Simth viewed the victim's body at the scene and testified
that the child was covered with sand and that there was evidence of an extensive struggle. The
Court finds that the struggle was between the defendant and the seven (7) year old child and that
no other person was involved. The pathologist testified that he found numerous abrasions over
the entire body of this child, with extensive amounts of blood coming from the nose and mouth
areas. Three (3) severe wounds were found in the head area, two (2) on the right side and one (1)
almost in the midline in the back of the head, indicating at least three (3) separate blows. The
skull was extensively fractured resulting in numerous fragments of the skull becoming depressed
directly into the brain. Multiple recent abrasions were found on the child's right arm and on her
right chest area.

2flcases

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Au2d

i)

{403 So. 2d 947} The pathologist was of the opinion that any of the three (3) separate blows
would have been sufficient to cause death and that the child may have lived for at least an hour
after the first blow but that she would have lost consciousness fairly rapidly.
The pathologist also testified that he visually observed extensive trauma to the genital area and
that his autopsy revealed acute perforation of the hymen resulting in acute hemorrhaging from the
hymenal area. The autopsy revealed numerous bleeding points in the lining of the vagina itself
and the presence of five (5) cc's of seminal fluid within the vagina.
Although the defendant in his statement and in his testimony denied that the victim made any
outcry while she was being sexually abused the Court rejects this testimony as being unbelievable
and patently untrue and finds as a matter of common understanding and knowledge that a seven
(7) year old virginal child would suffer excruciating pain as her vagina was being penetrated first
by the defendant's finger and then by his adult penis.
The standard jury instructions define heinous as meaning extremely wicked or shockingly evil.
Atrocious is defined as outrageously wicked and vile. Cruel means designed to inflict a high
degree of pain; utter indifference to, or enjoyment of, the suffering of others; pitiless. In the Court's
experience of seven (7) years as an Assistant Prosecuting Attorney and six (6) months on the
bench, I am not aware of a case where a defendant's conduct more clearly falls within the
definition of heinous, atrocious, and cruel.
3. The other aggravating circumstances: F.S. 921.141 (5)(a); 921.141 (5){b); 921.141 (5)(c);
921.141 (5){e); 921.141 (5)(f); 921.141(5)(g), are inapplicable in this case.
As to mitigating circumstances involving both the charge of first degree murder and the charge of
sexual battery, the Court makes the following findings:
1. The defendant has no significant history of prior criminal activity. F.S. 921.141 (6)(a), and this a
mitigating factor.
2. As to F.S. 921.141 (6)(b), there is no evidence that the capital crimes were committed while the
defendant was under the influence of extreme mental or emotional disturbance. The defendant's
mother testified that for several weeks prior to the crime the defendant had been using alcohol
and marijuana extensively but the Court finds that this alcohol and marijuana usage do (sic) not
result in extreme mental or emotional disturbance.
3. As to F.S. 921.141(6)(c), there is absolutely no evidence that the victim was a participant in the
defendant's conduct or that she consented to the act.
4. As to F.S. 921.141(6)(d), the defendant attempted to establish by his testimony that he was
merely an accomplice to these offenses and that his participation was relatively minor, however,
he did "admit" to having sexual intercourse with this seven (7) year old child, and as the Court has
stated above, his testimony that this so called "Fat Boy" was an accomplice is rejected as being
untrue.
5. As to F.S. 921.141 (6)(e), there is no evidence that the defendant was under extreme duress or
under the substantial domination of any person.
6. As to F.S. 921.141 (6)(f), there is no believable evidence that the defendant lacked the capacity
to appreciate the criminality of his conduct or that his ability to conform his conduct to the
requirements of law was substantially impaired. On the contrary, the fact that the defendant
sought to eliminate Toni Annette Wright because she would be in a position to identify him
supports a finding that the defendant appreciated the criminality of his conduct.

2flcases

6

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

/4kH

A

1. As to F.S. 921.141(6)(g), the defendant was nineteen (19) years at the time of these offenses
and his age is therefore, a mitigating circumstance. The Court notes, in passing, that as to sexual
battery the legislature found that the age of the defendant was a factor to be taken into account in
determining whether the sexual battery is a capital crime.
{403 So. 2d 948} As to Count Two of the indictment wherein the defendant was convicted of
sexual battery wherein the victim was eleven (11) years of age or younger and the defendant was
over eighteen (18). years of age, the Court makes the following findings of fact:
1. As an aggravated circumstance, the capital felony was especially heinous, atrocious and cruel.
F.A. 921.141(5)(h). In support of this finding the Court readopts the findings contained in
paragraph 2 above.
2. The other aggravating circumstances to-wit: F.S. 921.141 (5)(a)(b)(c)(d)(e) (f)(g), are
inapplicable to this charge.
The trial jury has rendered its advisory sentence to the Court recommending that a sentence of
life imprisonment be imposed on the defendant as to each of these capital crimes. Our Florida
Supreme Court has stated that the recommendation of the trial jury is to be accorded great weight
by the trial judge but I perceive the law still to be that the recommendation of the trial jury is not
binding on the trial judge and that I still have the awesome responsibility of making the ultimate
determination of whether the aggravating circumstances do in fact outweigh any mitigating
circumstances and accordingly whether the death penalty should be imposed. In the following
cases the trial judge declined to follow the recommendation of the trial jury and the imposition of
the death penalty was subsequently affirmed by the Florida Supreme Court: Hoy vs. State, 353
So.2d 826 (1977); Barclay vs. State, 343 So.2d 1266 (1977); Dobbert vs. State, 328 So.2d 433
(1976); Douglas vs. State, 328 So.2d 18 (1976); a case originating from this Circuit; Gardner vs.
State, 313 So.2d 675 (1975); and, Sawyervs. State, 313 So.2d 680 (1975). A review of the
factual statements in these cases leads the Court to the conclusion that this defendant's conduct
was at least equal to the conduct of the defendants in each of those capital cases.
It is the ultimate finding and determination of the Court that as to the charge of first degree
murder, the aggravating circumstances substantially outweigh the mitigating circumstances and
therefore the death penalty should be imposed upon the defendant, the recommendation of the
trial jury to the contrary notwithstanding.
As to the charge of sexual battery, the aggravating circumstances outweigh the mitigating
circumstances and therefore the death penalty should be imposed upon the defendant, the
recommendation of the trial jury to the contrary notwithstanding.
Upon appeal the defendant says that he could not be convicted and sentenced for both the
first-degree felony murder and the underlying felonies, sexual battery and burglary, relying upon the
principles enunciated in Pinderv. State, 375 So.2d 836 (Fla. 1979). Pinder was a prosecution for
first-degree murder, sexual battery and burglary. The Court commented that the jury could have found
defendant guilty of first-degree murder only on the basis of evidence that the defendant killed the
victim during the perpetration of the burglary or sexual battery, as there was no evidence of
premeditation. Therefore, the Court held, defendant could not be convicted of felony murder and the
underlying felony upon which the murder conviction was based. If, in addition to the killing, the
defendant commits more than one felony, only one of the felonies need be considered the underlying
felony and the defendant may be convicted and sentenced for the other felonies. The Court relied
upon Brown v. Ohio, 432 U.S. 161, 97 S. Ct. 2221, 53 L. Ed. 2d 187 (1977), and Harris v. Oklahoma,
433 U.S. 682, 97 S. Ct. 2912, 53 L. Ed. 2d 1054 (1977).

2flcases

7

©2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

AL&

In the case subjudice there was ample evidence from which the jury could have found premeditation.
Although the defendant, at one point, declared that he did not intend to kill the victim; nevertheless, he
also said that he dropped the concrete block on the victim "because she knowed me." He also stated
that after the sexual {403 So. 2d 949} battery he took a cement block, held it "a little higher than the
waist right here" and dropped it on the child. He did it again. This time he lifted it higher. He bent down
to see if she was still alive and she was not.
If the evidence shows that the accused had ample time to form a purpose to kill the deceased and for
the mind of the killer to become fully conscious of his own design, it will be deemed sufficient in point
of time in which to enable the killer to form a premeditated design to kill. Green v. State, 93 Fla. 1076,
113 So. 121, 122 (1927). Where a person strikes another with a deadly weapon and inflicts a mortal '
wound, the very act of striking such person with such weapon in such manner is sufficient to warrant a
jury in finding that the person striking the blow intended the result which followed See Rhodes v
State, 104 Fla. 520, 140 So. 309, 310 (1932).
There being adequate proof of premeditation, the principles announced in Pinder are not applicable to
this case.
Defendant also said that the offenses are not sufficiently distinguishable to permit the imposition of
cumulative punishment. Where the same act or transaction constitutes a violation of two distinct
statutory provisions, the test to be applied to determine whether there are two offenses or only one, is
whether each provision requires proof of the facts which the other does not. Brown v. Ohio. Murder in
the first degree through premeditation requires proof of a fact not required in sexual battery:
premeditated design to kill.
It is true, as asserted by defendant, that the double jeopardy clause protects against multiple
punishments for the same offense. North Carolina v. Pearce, 395 U.S. 711, 89 S. Ct. 2072, 23 L. Ed.
2d 656 (1969). In the absence of proof of premeditated design, this principle would be applicable to
the case subjudice. The two offenses are sufficiently distinguishable so as to permit two convictions
and two punishments.
Defendant also complained that the court improperly limited cross-examination of two state witnesses
regarding their knowledge of defendant's non-violent nature. Witnesses Barnes and Hayes were
friends of the defendant. Barnes testified as to activities of the defendant until 11:00 o’clock p. m. the
night of the homicide. Hayes testified as to his activities until 2:00 o'clock a. m. the same night. On
cross-examination the attorney for defendant asked Barnes if he found defendant "to be a quiet,
non-violent person." On cross-examination counsel for defendant asked Hayes if he had known
defendant "to get violent or anything like that." There were no facts elicited by the state upon direct
examination relative to defendant’s propensity for violence. It is true that cross-examination extends to
the entire subject matter, and to all matters that may modify, supplement, contradict, rebut or make
clearer the facts testified to in chief. Coxwell v. State, 361 So.2d 148 (1978). However, the attempted
cross-examination in the case subjudice was in no way relative to the direct examination of the
witnesses. It was improper cross-examination.
In addition the question itself was improper. Defendant had a right to produce evidence of his
non-violent character, but this is done through his own witnesses. In any event, he could only have
elicited evidence of his general reputation in the community, not specific instances of non-violence
Prevatt v. State, 82 Fla. 284, 89 So. 807 (1921); Reddick v. State, 25 Fla. 112, 5 So. 704 (1889).
Defendant next contends that section 921.141, Florida Statutes (1977), is unconstitutional because it
restricts the mitigating circumstances to be considered to those enumerated in the statute. He says
this violates the Eighth and Fourteenth Amendments to the United States Constitution. This question

2flcases

8

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

A

was raised when defendant moved to dismiss or quash the indictment. Also he requested a jury
instruction stating that mitigating circumstances which the jury could consider were not limited to those
listed in the statute. The trial court denied the motion to dismiss or quash and also denied the
requested instruction. The {403 So. 2d 950} record does not show that the trial judge precluded
defendant from offering any evidence of mitigation. The trial judge correctly ruled that the standard
jury instructions adequately covered the instructions on mitigating circumstances.
Defendant argues that the death penalty statute is unconstitutional in light of Lockett v. Ohio, 438 U.S.
586, 98 S. Ct. 2954, 57 L. Ed. 2d 973 (1978), where the Supreme Court held that the limited range of
mitigating circumstances which could be considered by the sentencer under the Ohio statute was
incompatible with the Eighth and Fourteenth Amendments. The identical attack was made upon the
Florida statute in Spinkellink v. Wainwright, 578 F.2d 582 (5th Cir. 1978), cert, denied, 440 U.S. 976,
99 S. Ct. 1548, 59 L. Ed. 2d 796 (1979). There the Fifth Circuit held that the Florida statute as applied
and construed by the Supreme Court of Florida conforms to the decision rendered in Lockett v. Ohio.
In several cases this Court has recognized the relevance of non-enumerated mitigating circumstances
and utilized them in determining the propriety of the sentence. See Buckrem v. State, 355 So.2d 111'
(Fla. 1978); McCaskill v. State, 344 So.2d 1276 (Fla. 1977); Messer v. State, 330 So.2d 137 (Fla.
1976); Meeks v. State, 336 So.2d 1142 (Fla. 1976); Jones v. State, 332 So.2d 615 (Fla. 1976);
Chambers v. State, 339 So.2d 204 (Fla. 1976); Halliwell v. State, 323 So.2d 557 (Fla. 1975). It is
clearly established that all relevant evidence pertaining to the character of the defendant and
circumstances of the crime may be considered by the sentencer in Florida. Lockett does not invalidate
our statute.
Defendant says the imposition of the death sentence upon him for the murder conviction, where he
did not possess a purpose to cause the death of the victim, is unconstitutional. This assertion is
without foundation in the record. There was sufficient proof of premeditation.
Section 794.011(2), Florida Statutes (1977), provides that whoever being eighteen years or older
commits a sexual battery upon a person eleven years of age or younger, is guilty of a capital felony.
The defendant was nineteen years of age at the time of the offense and his victim was seven years of
age. In his motion to dismiss, defendant challenged the constitutionality of this statute, contending that
punishment by death for the crime of sexual battery constitutes cruel and unusual punishment in
violation of the Eighth and Fourteenth Amendments to the United States Constitution. By denying the
motion to dismiss and imposing the death penalty, the trial court held that the statute was
constitutional. This question has not been decided under present Florida law. We have recently
considered sexual battery cases in which the penalty had been imposed, but we reduced the sentence
to life imprisonment in both cases because of the particular circumstances. Purdy v. State, 343 So.2d
4 (Fla.), cert, denied, 434 U.S. 847, 98 S. Ct. 153, 54 L. Ed. 2d 114 (1977); Huckaby v. State, 343
So.2d 29 (Fla.), cert, denied, 434 U.S. 920, 98 S. Ct. 393, 54 L. Ed. 2d 276 (1977).
Coker v. Georgia, 433 U.S. 584, 97 S. Ct. 2861, 53 L. Ed. 2d 982 (1977), involved the sentencing of a
man convicted of rape upon the verdict of a Georgia jury. The Georgia jury recommended the death
penalty and the trial court imposed a death sentence. The Georgia Supreme Court affirmed. The
Supreme Court of the United States held that the punishment of death for the rape of an adult woman
violates the cruel and unusual punishment clause of the Eighth Amendment because it is grossly
disproportionate and excessive in relation to the crime committed. The Court has yet to decide
whether the same holds true for the rape of a child under eleven years of age. In its plurality opinion
(Justices White, Stewart, Blackmun, and Stevens) the Court noted that Georgia was the only state
which authorized a sentence of death when the rape victim was an adult woman. Only two other
jurisdictions (Florida and Mississippi) provided capital punishment when the victim was a child. It was
then said in the opinion:

2flcases

9

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

A G7

{403 So. 2d 951} Rape is without doubt deserving of serious punishment; but in terms of moral
depravity and of the injury to the person and to the public, it does not compare with murder, which
does involve the unjustified taking of human life. Although it may be accompanied by another
crime, rape by definition does not include the death of or even the serious injury to another
person. The murderer kills; the rapist, if no more than that, does not. Life is over for the victim of
the murderer; for the rape victim, life may not be nearly so happy as it was, but it is not over and
normally is not beyond repair. We have the abiding conviction that the death penalty, which "is
unique in its severity and irrevocability," Gregg v. Georgia, 428 U.S. [153] at 187, 96 S. Ct. 2909,
[at 2931,] 49 L. Ed. 2d 859, is an excessive penalty for the rapist who, as such, does not take
human life.
This does not end the matter; for under Georgia law, death may not be imposed for any capital
offense, including rape, unless the jury or judge finds one of the statutory aggravating
circumstances and then elects to impose that sentence. Ga.Ann.Code § 26-3102 (1976 Supp.);
Gregg v. Georgia, supra, at 165-166, 96 S. Ct. 2909 [at 2921-2922], 49 L. Ed. 2d 859. For the ’
rapist to be executed in Georgia, it must therefore be found not only that he committed rape but
also that one or more of the following aggravating circumstances were present: (1) that the rape
was committed by a person with a prior record of conviction for a capital felony; (2) that the rape
was committed while the offender was engaged in the commission of another capital felony, or
aggravated battery; or (3) the rape "was outrageously or wantonly vile, horrible or inhuman in that
it involved torture, depravity of mind, or aggravated battery to the victim. Here, the first two of
these aggravating circumstances were alleged and found by the jury.Neither of these
circumstances, nor both of them together, change our conclusion that the death sentence
imposed on Coker is a disproportionate punishment for rape. Coker had prior convictions for
capital felonies--rape, murder, and kidnaping-but these prior convictions do not change the fact
that the instant crime being punished is a rape not involving the taking of life.433 U.S. at 598-599,
97 S. Ct. at 2869 (footnotes omitted).
Justices Brennan and Marshall concurred in the judgment as each believed that the death penalty in
all circumstances is cruel and unusual punishment prohibited by the Eighth and Fourteenth
Amendments. Justice Powell concurred in the judgment, but would not prejudge the issue of capital
punishment in the case of an outrageous rape resulting in serious, lasting harm to the victim. Justice
Burger and Rehnquist dissented. The reasoning of the justices in Coker v. Georgia compels us to hold
that a sentence of death is grossly disproportionate and excessive punishment for the crime of sexual
assault and is therefore forbidden by the Eighth Amendment as cruel and unusual punishment.
We point out that section 782.04, Florida Statutes (1977), defines murder in the first degree as the
unlawful killing of a human being when perpetrated from a premeditated design to effect the death of
the person killed, or when committed by a person engaged in the perpetration of, or in the attempt to
perpetrate, any sexual battery. Since the death sentence sub judice is sustained under the conviction
of premeditated murder, the constitutionality of the statute imposing the death penalty for sexual
battery becomes academic. Capital punishment can be inflicted only once.
The defendant says that the death sentence should be vacated in the murder conviction because
there was no evidence to support the finding of the trial judge that the crime was heinous, atrocious,
and cruel. Defendant refers us to State v. Dixon, 283 So.2d 1, 9 (Fla. 1973), cert, denied, 416 U.S.
943, 94 S. Ct. 1950, 40 L. Ed. 2d 295 (1974), where we held that atrocious means outrageously
wicked and vile and that cruel means designed to inflict a high degree of (403 So. 2d 952} pain with
utter indifference to, or even enjoyment of, the suffering of others. Defendant insists that when the
facts of this case are compared with previous decisions of this Court the findings of the trial judge

2fl cases

10

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

ALc&

*

cannot be upheld. He cites Halliwellv. State, 323 So.2d 557 (Fla. 1975). In Halliwell the killing arose
from a love triangle in which defendant flew into a violent rage after the husband of the woman he
loved had beaten her. It was an emotional type of homicide. However, hours later the defendant
dismembered the body. We held that the dismemberment of the body after death was not relevant in
fixing the death penalty. Since the dismemberment was not relevant, a killing committed in an
emotional rage was not heinous, atrocious, or cruel. In the case sub judice there was no emotional
rage. The defendant kidnapped a seven-year-old child for the purpose of sexually abusing her and
when he felt she could identify him, defendant proceeded to kill her with a cement block.
In Burch v. State, 343 So.2d 831 (Fla. 1977), cited by defendant, there was evidence that the
defendant was mentally disturbed at the time of the offense. We held this to be a mitigating factor and
that this factor was obviously considered by the jury in recommending life and improperly rejected by
the trial judge. When this mitigating circumstance was weighed against the aggravating
circumstances, the judge’s rejection of the jury's recommendation was overturned by this Court. In
Burch we did not say that the act was not especially heinous, atrocious, or cruel.
In Chambers v. State, 339 So.2d 204 (Fla. 1976), the defendant and the victim shared a long-standing
relationship which included severe and disabling beatings. Also, the victim had consented to the
beatings which caused death. We held that the totality of circumstances and the weighing of mitigating
and aggravating circumstances did not warrant the imposition of the death penalty on the defendant.
Jones v. State, 332 So.2d 615 (Fla. 1976), cited by defendant, resulted in the approval of the jury's
recommendation of a life sentence because the defendant's mental illness was considered as a factor
to be weighed.
The imposition of the death penalty was held to be proper in Washington v. State, 362 So.2d 658 (Fla.
1978), cert, denied, 441 U.S. 937, 99 S. Ct. 2063, 60 L. Ed. 2d 666 (1979), where the victim was
kidnapped and held captive for twenty-four hours before being stabbed to death while tied,
spread-eagled and helpless, on a bed, crying out and moaning as the stabbing continued.
Alford v. State, 307 So.2d 433 (Fla. 1975), cert, denied, 428 U.S. 912, 96 S. Ct. 3227, 49 L. Ed. 2d
1221 (1976), involved a defendant twenty-seven years of age who was convicted of the murder of a
thirteen-year-old female. The victim's body was discovered lying atop a trash pile. She had been
raped and shot to death, execution style. Her nude body was found blindfolded, with bullet wounds in
her head, chest, back and arm. We upheld the death sentence and described the act as being
especially heinous, atrocious, and cruel.
The homicides in Proffitt v. State, 315 So.2d 461 (Fla. 1975), affd, Proffitt v. Florida, 428 U.S. 242, 96
S. Ct. 2960, 49 L. Ed. 2d 913 (1976) (stabbing a man asleep in his bed), and Spinkellink v. State, 313
So.2d 666, (Fla. 1975), cert, denied, 428 U.S. 911, 96 S. Ct. 3227, 49 L. Ed. 2d 1221 (1976) (shooting
a sleeping companion), were heinous, atrocious, and cruel. So the instant case certainly qualified as
one which is heinous, atrocious and cruel. The mental anguish suffered by the victim preceding the
killing is a factor that may be considered in determining whether the act was especially heinous,
atrocious, or cruel. Knight v. State, 338 So.2d 201 (Fla. 1976).
Defendant also cites, in support of his position, the case of Purdy v. State, 343 So.2d 4 (Fla.), cert,
denied, 434 U.S. 847, 98 S. Ct. 153, 54 L. Ed. 2d 114 (1977). Purdy involved a sexual battery on a
child and the imposition of the death sentence was based primarily on the aggravating circumstance
of heinous, atrocious, and cruel. We held that the evidence failed to show that the sexual battery of
this child was especially aggravated under the terms of the death {403 So. 2d 953} sentence law. We
pointed out there was no evidence of physical abuse other than the sexual assault and the victim was
not physically harmed. The case sub judice was more than a sexual assault. There was a kidnapping

2flcases

11

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

AhA

f ■'

ft

and physical harm which resulted in death. In Washington v. State we observed that the mental
anguish experienced by a kidnapped victim awaiting eventual death bears upon the atrocity of the
crime. This contention is without merit.
Defendant then contends that the trial court erred in not finding the additional mitigating factors which
were present in the evidence. He complains that the trial court rejected the mitigating circumstances
of extreme mental or emotional disturbance or impaired mental capacity, discounting the effects of
defendant's consumption of alcohol, drugs, and marijuana. Obviously the ability of the defendant to
give a detailed account of the crime was inconsistent with the contention that he had a diminished or
impaired mental capacity because of excessive consumption of alcohol, drugs, and marijuana. In view
of the testimony presented, the trial judge correctly rejected defendant's "drinking" and "drug use" as a
mitigating factor. Jones v. State, 332 So.2d 615 (Fla. 1976), does not avail defendant because in
Jones there was extensive psychiatric evidence to the effect that the defendant did not know the
difference between right and wrong.
Defendant raises the possibility that he was a mere accomplice and that this theory was not
considered by the trial judge. During the course of the investigation and during the trial, the defendant
did attempt to implicate Fat Boy. This theory was rejected by the trial judge in weighing the evidence
produced at the trial.
Defendant contends that the trial court committed error in rejecting the jury's recommendations of life
imprisonment, relying upon Tedder v. State, 322 So.2d 908 (Fla. 1975). In Tedder we pointed out that
the recommendation of the jury should be given great weight. In order to sustain a sentence of death
following a jury recommendation of life, the facts suggesting a sentence of death should be so clear
and convincing that virtually no reasonable person could differ.
In Malloy v. State, 382 So.2d 1190 (Fla. 1979), the Court said:
We have repeatedly stated that in reviewing the propriety of a death sentence, this Court must
weigh heavily the advisory opinion of life imprisonment by the sentencing jury. The facts justifying
the death sentence must be clear and convincing in order to overrule the jury's recommendation.
Therefore, we must examine this record to determine whether there are clear and convincing
facts that warranted the imposition of the death penalty, and, in doing so, we must determine if
there was a reasonable basis for the jury's recommendation.Id. at 1193. (Citations omitted.)
If defendant's testimony were accepted as creating a reasonable doubt, he should not be found guilty
of murder in the first degree for his participation in the murder would not be proved. Defendant said he
was leaving the scene, turned around when the victim screamed, and saw Fat Boy drop a concrete
block on her head.
A convicted defendant cannot be "a little bit guilty." It is unreasonable for a jury to say in one breath
that a defendant's guilt has been proved beyond a reasonable doubt and, in the next breath, to say
someone else may have done it, so we recommend mercy.
This case is unlike Neary v. State, 384 So.2d 881 (Fla. 1980), where an accomplice receiving lesser
punishment played a significant role in the perpetration of the criminal act. Here the defendant
committed the murder or Fat Boy did it. This question was settled by the verdict of guilty.
The trial court reviewed other cases where this Court has affirmed the death penalty after a
recommendation by the jury of life imprisonment. The trial judge made a specific finding that
defendant's actions in the case sub judice at least equaled the conduct in those cases. This finding is
supported by the evidence. Consequently, it comes to this Court with the presumption of correctness.
{403 So. 2d 954} In Hoy v. State, 353 So.2d 826 (Fla. 1977), cert, denied 439 U.S. 920, 99 S. Ct.

2fl cases

12

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

A10

(%

293, 58 L Ed. 2d 265 (1978); Barclay v. State, 343 So.2d 1266 (Fla. 1977), cert, denied, 439 U.S.
892, 99 S. Ct. 249, 58 L. Ed. 2d 237 (1978); Dobbert v. State, 328 So.2d 433 (Fla. 1976), affd 432
U.S. 282, 97 S. Ct. 2290, 53 L. Ed. 2d 344 (1977); Douglas v. State, 328 So.2d 18 (Fla.), cert, denied
429 U.S. 871, 97 S. Ct. 185, 50 L. Ed. 2d 151 (1976); and Sawyerv. State, 313 So.2d 680 (Fla 1975)
cert, denied, 428 U.S. 911, 96 S. Ct. 3226, 49 L. Ed. 2d 1220 (1976), this Court-found compelling
’
reasons to reject the jury's recommendations.
Unquestionably the Court in each of these cases was swayed by the extreme heinousness and
atrociousness of the crimes. So was the trial court in the instant case. In all of the above cases, with
the exception of Dobbert, the victim was an adult. Here it was a seven-year-old child. She had been
kidnapped, subjected not only to sexual abuse, but to the anguish of perceiving that she was about to
have her head crushed, and this mental anguish bears on the atrocity of the crime. Washington v.
State. The trial judge exercised a reasoned judgment, and the facts suggesting a sentence of death
were so clear and convincing that virtually no reasonable person could differ.
The trial judge was not required to request a presentence investigation before sentencing the
defendant. Hargrave v. State, 366 So.2d 1 (Fla.), cert, denied, 444 U.S. 919, 100 S. Ct. 239, 62 L.
Ed. 2d 176 (1979); Thompson v. State, 328 So.2d 1 (Fla. 1976).
The sentence of death imposed for conviction of sexual assault is vacated. Section 775.082(1),
Florida Statutes, mandates a punishment of life imprisonment with a requirement that defendant serve
no less than twenty-five years before becoming eligible for parole. This is an automatic sentence, and
the Court has no discretion. Sufficient factors are present in this case to create an exception to Florida
Rule of Criminal Procedure 3.180 requiring the presence of defendant at sentencing. See Anderson v.
State, 267 So.2d 8 (Fla. 1972). The defendant, for the crime of sexual battery upon a child under
eleven years of age, shall be imprisoned for life, with no eligibility for parole during the first twenty-five
years.
We have carefully reviewed the evidence in this case and find that the judgments of guilt and the
sentence of death for murder, as well as the sentence to a term of years, were appropriate. These
judgments and sentences of the trial judge are therefore affirmed.
SUNDBERG, C. J„ and BOYD, OVERTON and ALDERMAN, JJ„ concur.
ENGLAND, J., concurs as to the conviction and dissents as to the sentence.

2fl cases

13

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

All

